<html>
<title> - DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2020</title>
<body><pre>[Senate Hearing 116-]
[From the U.S. Government Publishing Office]



 
       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2020

                              ----------                              


                       WEDNESDAY, APRIL 10, 2019

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 9:59 a.m. in room SD-138, Dirksen 
Senate Office Building, Hon. Richard Shelby (chairman) 
presiding.
    Present: Senators Shelby, Collins, Murkowski, Blunt, 
Hoeven, Durbin, Tester, and Baldwin.

                         DEPARTMENT OF DEFENSE

                       National Guard and Reserve

STATEMENT OF GENERAL JOSEPH L. LENGYEL, CHIEF, NATIONAL 
            GUARD BUREAU


             OPENING STATEMENT OF SENATOR RICHARD C. SHELBY


    Senator Shelby. Good morning. The subcommittee will come to 
order.
    I am pleased to welcome our distinguished panel to consider 
the President's budget request for the National Guard and 
Reserve components in fiscal year 2020.
    Today--I think I need to turn that on.
    Today the committee will hear from General Joseph Lengyel, 
Chief of the National Guard Bureau; Lieutenant General Charles 
Luckey, Chief of the Army Reserve; Lieutenant General Richard 
Scobee, Chief of the Air Force Reserve; Vice Admiral Luke 
McCollum, Chief of the Navy Reserve; and Major General Bradley 
James, Commander of Marine Corps Forces Reserve. I thank all of 
you for your appearance here today.
    I think it is imperative that our Nation's guard and 
reserve components be sufficiently manned, trained, and 
equipped to continue to maintain and to defend our national 
security interests.
    Our Nation's guard and reserve components are a vital part 
of the Nation's total military force. They provide support 
during homeland emergencies, participate in important joint 
training exercises, execute missions with our partners, and are 
currently deployed around the globe in support of combat 
operations.
    The men and women that make up our reserve components also 
serve our Nation by remaining ready to put their lives on hold. 
Whether they are called to mobilize, voluntarily deploy, or 
transition to full-time support, they represent the very best 
of us.
    And as we wrestle with responses to recent natural 
disasters and deployments to our southwest border, it is also 
important to highlight the unique flexibility offered by the 
National Guard. Their ability to operate through dual-status 
commanders provides an invaluable link between State and 
Federal authorities.
    As we evaluate the request for resources for fiscal year 
2020, I think we have to look forward to updates on disaster 
response and border efforts, but we would also like to focus on 
how this budget reflects the new National Defense Strategy and 
in particular how it proposes to modernize our forces to 
compete and win against peer competitors.
    We all look forward to your testimony here today. Your 
written testimony, all of it, will be made part of the record, 
without objection, in its entirety.
    Senator Durbin, I understand, will be joining us in just a 
few minutes, and his remarks will be made part of the record.
    [The statement follows:]
            Prepared Statement of Senator Richard C. Shelby
    Good morning, the Subcommittee will come to order.
    I am pleased to welcome our distinguished panel to consider the 
President's budget requests for the National Guard and Reserve 
Components in fiscal year 2020.
    Today the committee will hear from General Joseph Lengyel, Chief of 
the National Guard Bureau; Lieutenant General Charles Luckey, Chief of 
the Army Reserve; Lieutenant General Richard Scobee, Chief of the Air 
Force Reserve; Vice Admiral Luke McCollum, Chief of the Navy Reserve; 
and Major General Bradley James, Commander of Marine Corps Forces 
Reserve.
    Thank you for appearing today, and thank you for your service.
    It is imperative that our Nation's guard and reserve components be 
sufficiently manned, trained and equipped to continue to maintain and 
defend our national security interests.
    Our Nation's guard and reserve components are a vital part of our 
Nation's total military force. They provide support during homeland 
emergencies, participate in important joint training exercises, execute 
missions with our partners, and are currently deployed around the globe 
in support of combat operations.
    The men and women that make up our reserve components also serve 
our Nation by remaining ready to put their lives on hold. Whether they 
are called to mobilize, voluntarily deploy, or transition to full time 
support--they represent the very best of us.
    As we wrestle with responses to recent natural disasters and 
deployments to our southwest border, it is also important to highlight 
the unique flexibility offered by the National Guard. Their ability to 
operate through Dual Status Commanders provides an invaluable link 
between State and Federal authorities.
    As we evaluate the request for resources for fiscal year 2020, we 
look forward to updates on disaster response and border efforts. But we 
would also like to focus on how this budget reflects the new national 
defense strategy, and in particular, how it proposes to modernize our 
forces to compete and win against peer competitors.
    We look forward to your testimony and discussion.
    Now, I turn to the Vice Chairman, Senator Durbin, for his opening 
remarks. Thank you.

    [The statement follows:]
            Prepared Statement of Senator Richard J. Durbin
    Mr. Chairman, I am pleased to join you in welcoming today's 
witnesses, here to discuss the fiscal year 2020 National Guard and 
Reserve budget request.
                            southwest border
    The National Guard's mission at the Southwest Border, Operation 
Guardian Support, began 1 year ago.
    Today, there are over 5,000 troops at our Southwest border between 
the National Guard and active duty Army Soldiers and Marines. The main 
purpose of these deployments is to free up Customs and Border 
Protection personnel for immigration enforcement.
    But the fact is that the Administration is not focused on the main 
problem at the border--the drug epidemic.
    According to the Drug Enforcement Administration, Mexican drug 
cartels are the greatest crime threat to the United States.
    The DEA found that the cartels transport the bulk of their illicit 
goods over the Southwest border through legal ports of entry using 
passenger vehicles or tractor trailers.
    In 2017, drug overdoses killed a record 70,237 Americans and 28,466 
of these deaths involved fentanyl, an increase of more than 45 percent 
over the previous year.
    The cost of the National Guard's deployment to the border is 
estimated to be $247 million. The cost of the active duty deployment is 
approaching $150 million. And the cost of the National Guard's 
counterdrug missions in California, Arizona, New Mexico, and Texas? 
Just $57 million.
                               conclusion
    We have other specific issues to discuss with the panel--hurricane 
and flooding impacts, water contamination caused by firefighting 
chemicals, and Space Force--to name just a few.
    I look forward to a thorough discussion of these issues, and I 
thank each of our witnesses for your testimony and your service to our 
country.

    Senator Shelby. General Lengyel, we will start with you.

             SUMMARY STATEMENT OF GENERAL JOSEPH L. LENGYEL

    General Lengyel. Chairman Shelby, sir, thank you and thanks 
to Vice Chairman Durbin and distinguished members of the 
subcommittee. It is a pleasure for all of us to be here today 
and would submit our remarks for the record at this time.
    The National Guard consists of nearly 450,000 citizens, 
soldiers, and airmen. They represent the finest National Guard 
force in our history, and I am honored to represent them along 
with their families, their communities, and their employers who 
support them.
    The National Defense Strategy outlines the priorities for 
our military to deter war and protect the security of our 
Nation. My focus remains on our three primary missions: the war 
fight, defending and securing the homeland, and building 
enduring partnerships. Each one of these missions directly 
support the National Defense Strategy.
    In the war fight, on any given day, approximately 30,000 
men and women of the National Guard are mobilized in support of 
every combatant command around the globe.
    Our soldiers and airmen work with allies and partners to 
compete against adversaries below the threshold of armed 
conflict, to expand our Nation's competitive space, and to 
ensure we maintain our advantage.
    We are poised in regions where our men and women are 
postured to delay, deter, and deny adversarial aggression. The 
National Guard is prepared to surge and expand its support in 
times of war, and we are always there and always ready here in 
the homeland.
    As the space domain increasingly becomes a warfighting 
domain, our Army and Air National Guard space units are vital 
to the parent services. As with our units in the Army and Air 
National Guard, it is imperative our space units remain aligned 
with their parent services, including any potential future 
space force.
    In the homeland, the National Guard has on average 10,000 
soldiers and airmen conducting homeland operations every day. 
Your Air National Guard fighter wings are protecting our 
Nation's skies in 15 alert sites around the country, including 
the skies over the Capitol here today.
    Our cyber units continue to protect our networks from 
malicious cyberattacks. Twenty-seven of our States' National 
Guard cyber units were on duty and provided support during the 
most recent elections to ensure their integrity.
    The National Guard is also critical to our Nation's 
ballistic missile defense as proliferation of missile 
technology continues to expand.
    On top of all of this, the National Guard is ready to 
respond to emergencies such as hurricanes, wildfires, flooding, 
as well as assist law enforcement during times of civil unrest, 
missions that the National Guard performs with little or no 
notice.
    Last year, the National Guard was called up 195 times to 
respond to homeland emergencies. Our presence in communities 
around the Nation uniquely posture us to respond when our 
communities need us. The National Guard's success in the war 
fight and homeland operations is a direct result of the 
enduring partnerships we build with the international, Federal, 
State, and local partners.
    The National Guard through the State Partnership Program 
now partners with 83 nations. This low-cost, high-return 
program builds enduring partnerships based on mutual trust and 
generates security cooperation around the world. Today the 
National Guard has co-deployed 80 times with partner nations to 
Iraq, Afghanistan, and other places around the globe.
    On the Federal, State, and local levels, our deep 
partnerships with the National Guard's unique authorities 
ensure a speedy response and unity of effort during times of 
domestic crisis.
    To ensure the readiness of the National Guard to be 
deployable, sustainable, and interoperable with our active 
components, we require such things as appropriate levels of 
full-time support and replacing and upgrading old worn-out 
facilities. We require parity in equipping our force through 
concurrent and balanced modernization and recapitalization of 
our force along with our active components.
    Mr. Chairman, I offer my sincere thanks to this Committee 
for its long history of support to the National Guard. During 
my time as Chief, the Guard has seen increases in critical 
modernization and recapitalization efforts which provide for 
increased guard readiness and lethality.
    Mr. Chairman, I thank this committee for the continual 
support of National Guard and Reserve Equipment Account. For 
decades, this account has enabled the National Guard to field a 
ready force that both defends the Nation and responds to 
emergency in every community, district, territory, and State 
across the country.
    To all members of this committee, I thank you for the 
support in your men and women of the National Guard, their 
families, and I am honored to be here today representing them. 
And I look forward to your questions.
    [The statement follows:]
            Prepared Statement of General Joseph L. Lengyel
    Chairman Shelby, Vice Chairman Durbin, and distinguished members of 
the subcommittee, it is a pleasure to be here today with my fellow 
Reserve Component Leaders.
    I assumed duties as the Chief of the National Guard Bureau over 2 
years ago. It has been my honor each and every day to represent nearly 
450,000 Soldiers and Airmen serving in the National Guard. They are the 
finest National Guard force in our Nation's history.
    For 18 years, the joint force focused on executing 
counterinsurgency operations and fighting violent extremists. 
Counterinsurgency operations will remain a core competency. However, 
the 2018 National Defense Strategy (NDS) refocuses the Department of 
Defense (DoD) for long-term competition with China and Russia. The NDS 
portrays China and Russia as our dominant focus, while Iran, North 
Korea, and non-State actors remain national security threats.
    Your National Guard's three core missions of fighting America's 
wars, protecting the homeland, and building enduring partnerships 
directly support the NDS's three lines of effort: building a more 
lethal force; strengthening alliances and attracting new partners; and 
reforming the DoD for greater performance and affordability.
    The National Guard has transformed itself since the first Gulf War. 
It is now an operational force and no longer a strategic reserve. It is 
imperative the National Guard remains an operational force, as part of 
our Army and Air Force, that helps protect and secure our interests at 
home and abroad.
       building a more lethal force for the warfight and homeland
Warfight
    First, fighting America's wars is the primary mission of the 
National Guard. The National Guard is focused on readiness as the NDS 
demands more lethality from our military. We are the principal combat 
reserve of the Army and Air Force making up 20 percent of the entire 
joint force providing strategic depth in support of combatant commands. 
There is only one standard of readiness in fighting America's wars. 
This readiness requires the National Guard to be deployable, 
sustainable, and interoperable with our active components. Enhancing 
full-time support and replacing and upgrading dilapidated facilities 
are vital in that regard. The National Guard also requires parity in 
equipping its force through concurrent and balanced modernization and 
recapitalization so that it can deliver the lethality required to the 
joint force.
    On any given day, the National Guard averages 30,000 Soldiers and 
Airmen mobilized on duty in every region of the world. When mobilized 
and deployed, the Guard is interchangeable with its active components. 
We provide the joint force highly trained and experienced Soldiers and 
Airmen to meet mission requirements anywhere. Our Citizen Soldiers and 
Airmen are present wherever you see the Army and the Air Force.
    ``Thirty-nine days a year'' is no longer the standard for much of 
the National Guard. Today's force expects to be deployed. Predictable 
and rotational mobilizations, where our service members can utilize 
their training, will help keep the force relevant, ready, and 
integrated with our active components.
    The President directed the stand up of a Space Force this past year 
to protect and develop our vital interests in space. DoD space-based 
assets and capabilities protect our critical infrastructure, our 
economy, and our democracy. The National Guard continues to contribute 
critical capabilities in space, and we stand ready to support any 
future Space Force.
Homeland
    The NDS underscores the fact our homeland is no longer a sanctuary 
and new technologies and weapons can reach the heart of America with 
little or no warning. The 2019 Missile Defense Review clearly 
articulates the need to pursue advanced missile defense concepts and 
technologies to protect the homeland. The National Guard, with its 
Missile Defenders at Fort Greely, Alaska, Schriever Air Force Base, 
Colorado, and Vandenberg Air Force Base, California, remains critical 
to our Nation's missile defense and stands ready to evolve in 
recognition of advancing threats.
    The National Guard's unique dual State and Federal roles and robust 
presence in 2,600 communities in our States, territories, and the 
District of Columbia give our forces the widest presence of any 
military force in America and the ability to quickly respond to 
contingencies. Our skills and experience from the warfight are used to 
assist first responders and play an important part in a unified 
response under Federal or State command during domestic emergencies. We 
will remain, in most cases, the first military force to assist first 
responders in the States, territories, and the District of Columbia.
    In addition to approximately 30,000 Soldiers and Airmen mobilized 
around the world, on average, we have approximately 10,000 Guard 
Soldiers and Airmen conducting operations in the United States on a 
typical day. We provide capability and capacity to United States 
Northern Command and North American Aerospace Defense Command. Fifteen 
of the sixteen alert sites safeguarding our skies within the United 
States are operated by the Air National Guard (ANG). The National Guard 
Counterdrug Program assists law enforcement with the detection, 
interdiction, disruption and curtailment of illicit drug trafficking. 
Approximately 55 percent of DoD's chemical, biological, radiological, 
and nuclear (CBRN) response enterprise, capable of responding to a host 
of CBRN threats, reside in the National Guard. National Guard cyber 
units protect DoD's critical networks from malicious cyberattacks and 
provide an important cyber resource to Governors. Our Ground- based 
Midcourse Defense units in Alaska, Colorado, and California protect our 
Nation from ballistic missiles.
    Last year, the National Guard supported responses to natural 
disasters such as Hurricanes Florence and Michael, and the wildland 
fires in California by providing a myriad of services and aid to those 
devastated in these regions. The National Guard was there every step of 
the way.
    Whether executing DoD support to the Department of Homeland 
Security's Southwest border security mission or providing support for 
State responses to catastrophic disasters, the National Guard meets its 
homeland requirements while also meeting its wartime missions in 
support of combatant commands.
             strengthen alliances and attract new partners
    Alliances and partnerships provide an enduring, asymmetric 
strategic advantage over our competitors. Working with allies maintains 
the favorable balance of power that deters aggression and promotes 
stability and economic growth.
    The DoD uses multiple tools to strengthen partnerships and 
alliances that include security assistance, security cooperation, 
military-to-military leader and staff engagement, and regional 
cooperation. The National Guard aligns with the joint force through 
these activities and adds a unique contribution through the State 
Partnership Program (SPP).
Partnerships
    Eighty-three countries currently participate in the SPP with more 
partnerships expected in 2019. The SPP is a high leverage, low-cost 
program with partnerships in every region of the world. It expands 
America's competitive space through exchanges that extend beyond the 
military realm. Roughly one-third of the nations in the world are 
partnered with one of our 50 States, our territories, and the District 
of Columbia. These relationships, built on trust, the exchange of 
ideas, and mutual respect, served as the basis for approximately 80 co-
deployments and turned many security consumers into security providers.
    The SPP is a scalable and tailored approach to security 
cooperation. The National Guard consults and coordinates with combatant 
commanders, U.S. Embassies and their Country Teams, and host nations to 
understand the full range of issues they face. SPP events are led by 
respective state adjutants general who seek engagements on a broad 
array of interests that are beneficial to both nations. Over 950 SPP 
events were conducted in fiscal year 2018 across all Geographic 
Combatant Commands. In some of these regions, the SPP is the primary 
tool utilized by host nations for security cooperation. Given the 
benefits of this program, consistent funding is critical to sustain the 
groundwork and momentum that have been built over the 25 years since it 
began.
    The National Guard's emphasis on partnerships did not begin with 
the SPP. Our history as a State-controlled organization naturally led 
to partnerships with State and local agencies and their officials. 
Governors leverage our presence throughout the Nation through 
multiagency integrated playbooks used for planning and responding to 
crises. They call the National Guard to augment their State and local 
emergency response to leverage military capabilities and skills gained 
from the warfight such as manpower, training, leadership, organization, 
logistics, and communications. We instinctively take a collaborative 
and multiagency approach to all emergencies based on our years of 
working with Governors and local community partners. We remain the 
States' sole military force to respond to domestic incidents.
    The National Guard is a community-based force where our members are 
an integral part of their local communities. Whether partnering with 
local chapters of Youth ChalleNGe where more than 170,000 at-risk 
teenagers have graduated since its inception in 1993, or assisting 
local responders after a heavy snowstorm, the National Guard reinforces 
the connection between the American people and their military.
        reform the dod for greater performance and affordability
    Business reform is mandated by the NDS. The National Guard helps 
DoD achieve greater performance and affordability by optimizing the 
inherent cost- savings of the National Guard and posturing our forces 
for predictable operational requirements. This directly supports the 
joint force in meeting global demands and preserves readiness in the 
active components.
    Reforming for greater performance also includes properly organizing 
the National Guard to achieve mission objectives. The National Guard 
Bureau (NGB) is a DoD joint activity with statutes and policies 
codifying the roles and functions of our organization. Along with the 
Office of the Chief of the National Guard Bureau, the NGB is comprised 
of the Army National Guard Directorate, the Air National Guard 
Directorate, and the NGB Joint Staff. The NGB operates as one entity 
supporting the 50 States, three territories and the District of 
Columbia to man, train, and equip National Guard forces to execute DoD 
missions worldwide. We strive to ensure unity of effort within our 
organization and efficiently use the resources entrusted to the 
National Guard. The NGB must continue its march towards reform and 
efficiencies.
                        cngb's three priorities
    I have laid out three priorities to accomplish the objectives of 
the NDS and our three core missions of warfight, homeland, and 
partnerships--provide ready forces to the President and our Governors, 
take care of and develop our people, and promote an innovative culture.
Priority #1 Readiness
    The National Guard contributes to readiness recovery for the joint 
force by providing additional capacity through rotational forces. By 
deploying for known requirements, the National Guard enables the joint 
force to meet increasing global demands while reducing strain on the 
active components. In fiscal year 2018, our Soldiers and Airmen 
supported DoD missions spanning every Geographic Combatant Command and 
utilized some of the same skills helping communities throughout the 
Nation in responding to emergencies such as hurricanes, floods, winter 
storms, a volcano, and wildfires.
    The Army National Guard (ARNG) is committed to providing ready 
forces that are warfighting-capable and Governor-responsive. In 
providing ready forces for the Army and the joint force, the Army 
designates select ARNG formations as Focused Readiness Units that are 
available to rapidly deploy and conduct contingency operations. 
Additionally, four ARNG brigade combat teams and the units that support 
them will complete decisive-action training rotations at the Army's 
premier combat training centers. These activities occur in parallel 
with deployments and exercises that our Citizen-Soldiers participate in 
around the world. The ARNG's primary focus in fiscal year 2020 is to 
reverse shortfalls in recruiting and ensure full-time support is fully 
leveraged to achieve and maintain our readiness.
    The ANG is also committed to the readiness of the force, its 21st 
century Guard Airmen, and building for tomorrow's fight. The Air Guard 
provides the same levels of readiness and deployment timelines as the 
active duty. It exceeded its fiscal year 2018 end strength goal of 
106,600 with a continued focus on training and resourcing efforts that 
improve readiness and lethality.
    Looking to the future, the ANG must modernize and recapitalize its 
equipment concurrently and in a balanced manner commensurate with the 
active duty ensuring deployability, sustainability, and 
interoperability across all mission sets. The Air Guard remains focused 
on resourcing and training lethal, resilient Guard Airmen and 
developing exceptional leaders.
Priority #2 People, Families, and Employers
    There must be a balance between the needs of Guard members' 
employers and the needs of the States and the Nation. Striking the 
appropriate balance requires training that is predictable, when 
possible, and deployments that leverage this training and enhance 
national security.
    We have increased our recruiting efforts. The current economic 
environment requires competing against other market forces and 
remaining competitive through incentives in order to recruit the very 
best men and women.
    The National Guard fosters integrity, respect, and candor within 
its ranks by maintaining high standards of personal conduct and 
bearing. We will not tolerate those who choose to act with a lack of 
integrity and character, nor will we accept sexual assault, sexual 
harassment, discrimination, and any forms of communication that degrade 
or demoralize unit cohesion and readiness. We provide our utmost 
support and care to victims of these acts.
    We are also emphasizing mental health and resiliency for our units 
as we strive to prevent suicides. Any Soldier or Airman who takes his 
or her own life is one too many. First-line supervisors, battle buddies 
and wingmen will continue to receive the requisite training necessary 
to look out for fellow Soldiers and Airmen.
    We must also ensure our families are aware of family readiness 
programs, employment assistance programs, and where to turn when they 
need help. Our families faithfully commit to our Nation and we must 
ensure we remain faithful to them.
Priority #3 Innovation
    The National Guard is a catalyst for DoD's innovation initiatives. 
Whether looking at ways to save costs through greater utilization of 
untapped capacity in the National Guard, or reviewing ways to expand 
the competitive space and increase our advantages through our SPP, DoD 
has many options to use the Guard as ``the innovative force'' to help 
address today's challenges.
    We have dedicated resources to ensure our culture is dynamic, and 
forward leaning by questioning existing processes and challenging the 
status quo. We have to educate and empower our Guardsmen and implement 
innovative measures.
    Our National Guard Innovation Team (NGIT) is one vehicle we use to 
innovate. This team leverages the talent, experience, abilities, and 
insight of our traditional Guardsmen enabling the Guard to integrate 
skill sets and join Guard members from unconnected fields that can 
sometimes lead to breakthroughs. This past year, the NGIT worked on 
issues related to communications, employer support, recruiting and 
retention, reform initiatives, and technology adaptation. The challenge 
ahead will be in the implementation of some very innovative ideas.
                               conclusion
    The operational National Guard is an integral part of the joint 
force and plays an important role in every aspect of our national 
security and defense. I am proud of the Citizen-Soldiers and Airmen who 
serve to protect our homeland and interests abroad. We face many 
challenges ahead, some in areas not seen before. However, I am 
confident we will confront these challenges as we always have--through 
the extraordinary talents and commitment of our Guardsmen and women. We 
remain . . . Always Ready, Always There!

    Senator Shelby. General Luckey.
STATEMENT OF LIEUTENANT GENERAL CHARLES D. LUCKEY, 
            CHIEF, ARMY RESERVE
    General Luckey. Mr. Chairman, Ranking Member Durbin, 
distinguished members of this committee, I appreciate again the 
opportunity to represent before you this morning the 200,000 
soldiers and civilian employees of America's Army Reserve. 
Thank you for the opportunity to be here and for your continued 
support as we build and support our soldiers, families, and 
employers and developing the readiness that the Nation 
requires.
    In preparing to meet the challenges of new and evolving 
threats around the world, your Army Reserve continues to train, 
organize, and posture itself to identify early-deploying 
formations, aggregate additional capabilities, and move quickly 
to accomplish post-mobilization training tasks in order to meet 
the warfighter's time-sensitive requirements.
    This construct, Ready Force X, remains the way in which we 
focus energy, optimize our processes, and prioritize our 
resources to develop capabilities at the speed of relevance for 
a major war.
    Early-deploying RFX formations and capabilities need to be 
able to move quickly, in some cases days or weeks, in order to 
support the Joint Force in any significant conflict or 
demonstration of national resolve. We do not call this ``fight-
tonight readiness''; we call it ``fight-fast capability.'' Over 
the past year, we have expanded and refined this construct, and 
we are more ready than ever.
    While we fully acknowledge that our first responsibility is 
to bring our unique capabilities as a part of the total Army 
for winning the Nation's wars, we also embrace our opportunity 
and mandate to respond on no notice to problems and challenges 
in the homeland.
    With soldiers, facilities, and capabilities in thousands of 
communities across the Nation, America's Army Reserve is well 
postured to respond quickly when disaster strikes and our 
fellow Americans are in their time of greatest need.
    Our key responsive capabilities include search and rescue 
units, aviation assets, route clearance engineers, medical 
units, water and fuel distribution and treatment operations, 
purification, and communications support.
    America's Army Reserve provided assistance in Hurricanes 
Harvey, Irma, Maria, and Florence, and a variety of other 
disasters. We were at it again last month in the State of 
Nebraska.
    For the past 2 years, America's Army Reserve has been on a 
path to seize digital key terrain. This journey presses on as 
the Army Reserve Innovation Command headquartered in Houston, 
Texas, and now in direct support of Army Futures Command in 
Austin assesses and develops emerging outposts in technological 
hubs across the country.
    The command serves as a link for operational innovation and 
the development of concepts and capabilities to enhance the 
readiness of the future force by capitalizing on the extensive 
civilian-acquired or retained skills, knowledge, and experience 
that reside in America's Army Reserve.
    We are uniquely positioned to support the Army and staying 
on pace with rapidly emerging trends or opportunities in the 
private sector, while also providing a potential pool of on-
demand talent for Army Futures Command.
    As it pertains to cyberspace operations, we remain steadily 
on glide path to establish the 10 Cyber Protection Teams in key 
locations around the country such as San Antonio, Boston, 
Pittsburgh, and the Bay Area in California.
    Army Reserve cyber soldiers bring unique skills and 
experience to the force from their civilian occupations, drawn 
from over 40 corporate, financial, and academic institutions, 
and they provide direct support to Army Cyber Command and other 
governmental agencies.
    Additionally, the Army Reserve recently entered a 
partnership with the Army Cyber Institute, the U.S. Military 
Academy at West Point, and we will work together on program 
research.
    We remain grateful to Congress for passing of the fiscal 
year 2019 defense appropriations bill and ensuring consistent 
and predictable funding, which will build Army Reserve 
readiness and support modernization.
    Finally, we have been able to leverage the congressionally 
provided National Guard and Reserve Equipment Appropriations, 
NGREA, to purchase key systems and tactical vehicles, including 
the Joint Light Tactical Vehicle, weapons firing simulators, 
wet gap crossing equipment, and to integrate dual-purpose 
capabilities that can be brought quickly to bear not only in 
wartime, but also to support our fellow citizens in the 
aftermath of a homeland disaster.
    As I have testified previously, there is an inherent 
challenge in the part-time force. This team needs to be ready 
enough to be relevant but not so ready that our soldiers cannot 
keep good, meaningful civilian jobs, and healthy sustaining 
family lives.
    This nimble and efficient part-time force would not be 
possible without the support of civilian employers around the 
globe. They are our essential partners in national security, 
sharing the best talent in the world with us. As they continue 
that commitment and sacrifice, which allows our soldiers to 
serve the Nation while maintaining rewarding civilian 
employment, we continue to appreciate your support and 
encouraging them to do so. We have a deeper appreciation for 
the sharing, the partnership that we are constantly maintaining 
with our employers across the Nation and around the world.
    As with the employers, nothing would be possible for an 
all-volunteer force without our families. We continue to focus 
on making sure we support them, and we make sure that they know 
how much their support is required to be able to sustain this 
force. We could not do it without them.
    Due to Congress' continued support, America's Army Reserve 
will meet the challenges of the time. Most importantly, we will 
remain steady in the saddle as we build the most capable 
combat-ready and lethal Federal reserve force in the history of 
the Nation.
    I thank you for your support. I thank you for your time and 
I appreciate--and look forward to your questions.
    [The statement follows:]
       Prepared Statement of Lieutenant General Charles D. Luckey
         america's army reserve: leadership. energy. execution.
    The increasingly complex and volatile global security environment, 
the changing character of warfare, and the rapid advance of technology 
continue to demand increased readiness and capability to deter and, if 
necessary, defeat aggression. As the dedicated Federal reserve of the 
Army, Army Reserve--its units-of-action and individual Soldiers--must 
be ready to mobilize, deploy, fight and win as an integrated part of 
the Army team anywhere in the world. More to the point, it must do so 
quickly.
    Over a long history of wars and contingency operations, as well as 
domestic emergencies, the Soldiers of America's Army Reserve have never 
failed to answer the Nation's call. Today, we continue to build and 
sustain the most capable, combat-ready and lethal Federal Reserve force 
in the history of the Nation. It is a large undertaking. As a 
community-based force with a presence in all 50 States, five U.S. 
territories and 30 countries, America's Army Reserve spans the globe 
with over 200,000 Soldiers and Civilian employees and 2,000+ units in 
twenty different time zones. It comprises nearly 20 percent of the 
Army's organized units and over a quarter of its mobilization base-
expansion capacity. As a unique set of enabling formations, the Army 
Reserve provides a large percentage of the Army's maneuver support and 
sustainment capabilities, including medical, fuel distribution, civil 
affairs, logistics, and transportation units. Put simply, America's 
Army Reserve supports U.S. national security interests by providing key 
and essential capabilities that the Total Army and the Joint Force need 
to dominate on the battlefield the opening days of conflict. Nested 
within the Army's priorities of Readiness, Modernization and Reform, 
our supporting lines-of-effort are to:
  --Build and sustain an increasingly capable, combat-ready and lethal 
        force ready to deploy, fight and win.
  --Continue to garner and maintain the support of our Soldiers' 
        employers and Families as they balance their lives.
  --Anticipate change as we shape and scope the future force, and 
        leverage our unique and pervasive connections with the Nation's 
        private sector.
    The challenges of building and fielding such an array of ready and 
lethal capabilities from the ranks of a largely part-time team is no 
small task, but the diversity and efficiency of the force is also its 
strength. Leveraging a dispersed and dynamic phalanx of Soldiers and 
leaders with civilian-acquired or retained skills from over 140 
different career fields, America's Army Reserve brings the brains and 
brawn of the Nation to bear for the Army and the Joint Warfighter as 
needed. This effort requires a balance of pragmatism, operational drive 
and focus, and a strategic perspective on the tough business of driving 
deep and abiding cultural change.Shifting our orientation from 
predictable, rotational and episodic readiness and employment, to 
large-scale and short-notice combat operations against a peer or near-
peer threat demands a dramatic change in our mindset and perspective. 
At its core, only inspired leadership at echelon--combined with 
boundless energy and a pervasive commitment to embrace and deliver the 
warrior ethos within the context of existential warfare--will harden 
this team's resolve and hone the decisive edge. This is the work that 
we are about.
    Building the Most Capable, Combat-Ready and Lethal Federal Reserve 
Force in the History of the Nation
    In preparing to meet the challenges of this new and evolving threat 
paradigm, your Army Reserve is training, organizing and posturing 
itself to be able to respond on short notice to identify early-
deploying formations, aggregate additional capabilities and move 
quickly to accomplish post-mobilization training tasks in order to meet 
the Warfighter's time-sensitive requirements. This construct, Ready 
Force X (RFX), is the way in which we focus energy, optimize processes 
and prioritize resourcing to deliver capabilities at the speed of 
relevance for a major war. Early- deploying RFX units and capabilities 
need to be able to move quickly--in some cases in days or weeks--in 
order to support the Joint Force in any significant conflict or 
demonstration of national resolve. We do not call this ``fight 
tonight'' readiness; we call it ``fight fast'' capability. From a 
cultural perspective, RFX requires that each Soldier, at the individual 
level, embrace the ethos of personal readiness. While many of aspects 
of collective readiness at the unit level can be tuned- up quickly upon 
mobilization, the key individual Soldier requirements of physical 
fitness, medical readiness, tactical discipline, professional 
education, and fieldcraft proficiency must be ``baked in'' to the 
entire force. Put simply, at a profound level, we are all in RFX.
    As noted above, this focus on fighting fast, and in opposition to a 
peer adversary, is a stark and challenging departure from the 
progressive and rotational (or cyclic) readiness models that have 
evolved over the past 18 years of sustained operations, primarily in 
the CENTCOM theater of operations. Not only does it drive all aspects 
of our training to build increasingly high levels of both individual 
and collective readiness, but it enables us to prioritize equipping and 
modernization of certain formations or capabilities with a sustained 
level of focus over a period of years, as the lead capability sets and 
formations inside the RFX architecture do not ``rotate'' arbitrarily 
from 1 year to the next. This key attribute--the ability to plan and 
sustain a coherent training, equipping and resourcing strategy across a 
number of years for the bulk of America's Army Reserve--will deliver 
ever greater capability and lethality as we move in to the future.
    As with the other components of the Army, your Army Reserve pushes 
to stress Soldiers and units with relevant scenarios that emulate the 
full-spectrum, all-domain, aspects of the next fight, while 
simultaneously acknowledging that we continue to deploy the force into 
the current one. By orchestrating, rationalizing and synchronizing 
strenuous training exercises and activities at a wide variety of 
training platforms and venues across North America, and around the 
globe, your Army Reserve has elevated its priority on combat-readiness 
and fieldcraft to an unprecedented level. Working closely with the 
other components of the Army and, in many cases, with close partners 
and allies from around the world, America's Army Reserve continues to 
build and expand upon opportunities to train the way we will fight; 
together. Whether it be our expanded and, essentially, year-round Cold 
Steel gunnery operation--now well into its third year--or an expansion 
of Combat Support Training Exercises (CSTXs), routine and embedded 
rotations at the Army's Combat Training Centers, or ever closer 
collaboration with our teammates in the Army National Guard at such 
training venues as Northern Strike or Golden Coyote, we continue to 
explore expanded options to build readiness for tomorrow.
    The Army Reserve is always looking to the future and the next 
fight. To that end, the United States Army Reserve is fielding 60 Joint 
Light Tactical Vehicles (JLTVs), which we will use as training and 
familiarization platforms setting the conditions for fielding-at-scale 
in the years ahead. As the leading edge of Army Reserve modernization, 
these initial JLTVs will support the Army Reserve Training Strategy and 
accelerate Army interoperability; both in training and on the 
battlefield.
              defense support to civil authorities (dsca)
                     always present. always ready.
    With Soldiers, facilities and capabilities in more than 1,100 
communities across the Nation, America's Army Reserve is well-postured 
to respond quickly when disaster strikes and our fellow Americans are 
in their time of greatest need. Our key responsive capabilities include 
search and rescue units, aviation assets, route clearance engineers, 
medical units, water and fuel distribution operations, water 
purification and communications support; many of these forces have been 
well-tested over the recent past. While we fully acknowledge that our 
first responsibility is to leverage our unique capabilities to support 
the Army in winning the Nation's wars, we also embrace our opportunity 
and mandate to respond to need, on no-notice, in the Homeland. As 
America's Army Reserve demonstrated recently in its response to 
Hurricanes Harvey, Irma, Maria and Florence, we cede this 
responsibility to no one.
    The Army Reserve has been able to invest in the capacity and depth 
to be well-postured to move quickly and effectively to support our 
fellow citizens when they need our support. This is a huge benefit to 
the Nation, and one that informs our focus as we look to the future.
    While recognizing Federal Emergency Management Agency is the lead 
Federal agency for disaster response in the Homeland, America's Army 
Reserve is enhancing the immediate response authority of our Army 
Reserve Regional Commands to more effectively command and control units 
to execute emergency response operations in support of the American 
people. As an example, and to that end, we have reorganized, empowered 
and equipped our 1st Mission Support Command, headquartered at Fort 
Buchanan, Puerto Rico, to be the ``go-to command'' to generate and 
integrate your Army Reserve's immediate response operations in the 
Caribbean when disaster response is needed. We will continue to shape, 
develop and scale this capability as we move forward, ensuring that we 
position our units and their equipment to become ever more responsive 
and operationally effective.
         shape and grow the future force: modernize and reform
    From its inception in 1908, leveraging the huge capacity and 
existing technical capability of medical professionals in the Nation's 
private sector, America's Army Reserve has always brought depth in 
critical technologies to the Army. Our times are no different. Drawing 
now upon its diverse and dispersed professionals working in a variety 
of leading edge technologies across the country, your Army Reserve will 
tap into the finest brains in business, industry and academia to act as 
a screening force for the Army and an additive to national security. 
This role is in our cultural DNA.
    For the past 2 years, your Army Reserve has been on a path of 
transforming its structure and procedures to seize the ``digital key 
terrain.'' This journey presses on as our 2-star Innovation Command--
headquartered in Houston, Texas and now in Direct Support of Army 
Futures Command in Austin--assesses and develops emerging outposts in 
technology hubs across the country, focusing on the harnessing of 
skills and talent acquired or retained in the commercial sector. The 
command serves as a link for operational innovation and the development 
of concepts and capabilities to enhance the readiness of the future 
force by capitalizing on extensive ``civilian acquired or retained'' 
knowledge, skills and experience. As a screening force for the Army, we 
are uniquely positioned to support the Army in staying on pace with 
rapidly emerging trends or opportunities in the private sector, while 
also providing a potential pool of on-demand talent for Army Futures 
Command. This process is already well underway.
    As it pertains to cyberspace operations, we remain steadily on 
glide path to establishing Cyber Protection Teams at key locations 
around the country, such as Camp Parks, CA (Bay Area), Adelphi, MD 
(D.C.), San Antonio, TX, Fort Devens, MA (Boston), and Coraopolis, PA 
(Pittsburgh). Moreover, the Army Reserve Cyber Operations Group 
(ARCOG), with five Cyber Protection Centers and 10 Cyber Protection 
Teams, provides direct support to Army Cyber Command (ARCYBER), and 
general support to other government agencies including DHS, NSA, FBI 
and DIA. Army Reserve Cyber Soldiers bring unique skills and experience 
to the force from their civilian occupations, drawn from over 40 
corporate, financial and academic institutions. The cyber talent within 
the Army Reserve delivers capability, improves cyber readiness, and 
increases our network defense capability. To identify and cultivate 
cyber talent, the Army Reserve created the National Cyber Private 
Public Partnership in 2015. This program places Soldiers in critical 
Army Reserve cyber formation and provides enhanced opportunities to 
pursue civilian careers in the field.
    As for reform, America's Army Reserve is committed to achieving the 
Secretary of the Army's intent of increasing both the effectiveness as 
well as the efficiency of the Total Army, reducing overhead, 
eliminating redundancies and streamlining procedures while further 
delegating authorities and empowering subordinate commanders wherever 
possible. As the Principal Official of this Component of the Army as 
well as the Commanding General, U.S. Army Reserve Command, I have 
directed my team to consolidate supporting staff operations, reshape 
headquarters and drive to an integrated Army Reserve staff that is 
optimized to support each independent set of responsibilities as a 
holistic effort. This rigorous analysis and scrutiny predates the 
publication of the Department of the Army Reform Initiative memorandum 
and is advancing on pace. Over time, this initiative will ensure that 
we strike the right balance between staffing headquarters, providing 
full-time support to units in the field, and cascading appropriate 
authorities ``down echelon.'' We will continue to assess and evaluate 
the size, consolidation and function of headquarters as we press into 
the future, and we will adjust with agility and speed.
                support soldiers, families and employers
    Our dynamic requirement remains straightforward, but tough: this 
team needs to be ready enough to be relevant, but not so ready that our 
Soldiers cannot maintain good, meaningful civilian jobs and healthy, 
sustaining family lives. This challenge is exacerbated by the simple 
fact that we must recruit and retain our ranks where Soldiers live and 
work, and anticipate emerging demographics by moving force structure to 
not only where talent resides today, but where it will be tomorrow. 
This process demands agility, synchronization and integrated planning. 
It also relies, without exception, upon the enduring support of 
thousands of employers across America as well as our Soldiers' 
Families.
    Put simply, this part-time force would not be possible without the 
support of civilian employers around the globe. They are our essential 
partners in national security--sharing the best talent in the world 
with us--as they continue the commitment and sacrifice which allows 
Soldiers to serve the Nation while maintaining rewarding civilian 
employment. America owes those employers who are willing to trade a 
short-term inconvenience or disruption to the ``bottom line'' in 
exchange for a more secure common future a deep appreciation for 
sharing their workplace talent with America's Army Reserve.
    As with employers, nothing would be possible for an all-volunteer 
force unless our Families continued to stay on the team. There is no 
doubt that the Army depends on its Families to support its Soldiers and 
to share them with us. This is doubly so in the Reserve Component where 
many weekends and training days are consumed in what would otherwise 
likely be ``family time'' for our Active Component brothers and 
sisters. Accordingly, the Army Reserve relies heavily on our Families, 
and the communities that support them, as we partner with a broad range 
of organizations and employers who support our military Families.
    To that end, America's Army Reserve is pressing hard to leverage 
new technologies and opportunities to better communicate with our 
entire Army Reserve family. We are presently in the final stages of 
developing and propagating a new ``smart phone friendly'' application 
that will enable our Families to self-organize and provide mutual 
support where they live and work at the zip code level without regard 
to their Soldier's specific unit-of-assignment or chain-of-command. 
This Double Eagle mobile application is also designed to help leaders 
maintain contact with Soldiers during the periods between battle 
assemblies as well as conjure supporting resources for Soldiers and 
Family members who may be in crisis. As a command insight tool, the app 
creates a broadly expanded level of access and connectivity, 
propagating the penetration-at-echelon of timely and relevant 
information and key aspects of commander's intent. Across our dispersed 
battle-space, it will increase our Soldiers' bond as a team while 
offering their Families similar opportunities as a critical partner in 
this undertaking. Finally, working in close coordination with U.S. Army 
Recruiting Command, the app will be optimized to support the Total Army 
in identifying potential recruits for the team by leveraging the entire 
end strength of America's Army Reserve as real-time recruiters, living 
and working across the America and scouting talent for the Nation.
                               conclusion
    We remain grateful to Congress for passing of the fiscal year 2019 
defense appropriations bill and for ensuring consistent and predictable 
funding which will directly support Army Reserve readiness and 
modernization. As a result of it, your Army Reserve will continue to 
meet the challenges of the time. In these dynamic and challenging 
times, we will stay steady in the saddle as we build the most capable, 
combat-ready, and lethal Federal reserve in the history of the Nation.

    Senator Shelby. Lieutenant General Scobee.
STATEMENT OF LIEUTENANT GENERAL RICHARD W. SCOBEE, 
            CHIEF, AIR FORCE RESERVE
    General Scobee. Chairman Shelby, Vice Chairman Durbin, and 
distinguished members of the subcommittee, thank you for the 
opportunity to report on the readiness of America's Air Force 
Reserve. I am joined today by Chief Master Sergeant Tim White, 
Command Chief for the Air Force Reserve Command.
    As a critical component of the total force, the Air Force 
Reserve provides cost-effective strategic depth, rapid surge 
capability, and operational support to the Joint Force. Our 
70,000 citizen airmen are both interchangeable and integrated 
with their active component counterparts. We fly as one, we 
train as one, and we fight as one.
    The Air Force Reserve's current objective is to prepare to 
operate in tomorrow's battlespace while providing excellent 
support to our airmen and their families.
    To ensure alignment with the National Defense Strategy, we 
are focused on prioritizing our strategic depth and 
accelerating our readiness. We are also going to develop 
resilient leaders who can generate combat power, and we are 
going to reform our organization to optimize our warfighting 
capabilities and take care of our airmen.
    The on-time allocation of the fiscal year 2019 budget 
greatly bolstered Air Force Reserve readiness, and we know you 
are working hard to ensure the timely allocation of the fiscal 
year 2020 budget. We thank you for your continual support and 
your diligent effort to ensure we receive the predictable 
funding we require to defend this great Nation.
    The Air Force Reserve has improved our overall readiness 
during the past year. We are better prepared at the unit level, 
and our individual readiness has increased.
    Our nuclear deterrence forces are mission-ready, and we 
have expanded our mission capabilities by activating our first 
cyber wing and our first intelligence, surveillance, and 
reconnaissance wing.
    Additionally, we are also aligning our space units to meet 
future space mission force requirements, whatever they may be.
    We have improved our lethality by modernizing our weapon 
systems with the National Guard Reserve Equipment 
Appropriations. We thank you for those funds, which we also 
used to purchase much needed support equipment.
    We remain focused on our personnel programs and reaching 
our end strength. We are targeting our full-time manpower 
shortages with a variety of initiatives, which include 
converting approximately 1,200 full-time authorizations from 
air reserve technicians to active guard reserve positions.
    The Air Force Reserve has built our success on the hard 
work of our airmen. Therefore, it is imperative that we ensure 
our reserve citizen airmen and their families have the support, 
resources, and care they need.
    This subcommittee can improve the quality of life for our 
airmen by supporting legislation to authorize our dual- status 
air reserve technicians to receive medical coverage under the 
TRICARE Reserve Select healthcare plan. This initiative would 
improve healthcare across our Air Force Reserve for our 
technicians and their families, and it would significantly 
increase the retention of our air reserve technicians, our most 
challenging duty status.
    The Air Force Reserve will continue to increase readiness 
as we posture our force to meet future operational 
requirements.
    I thank you for the opportunity to appear before you today 
and for your unwavering support as we ensure the Air Force 
Reserve remains prepared to defend this great Nation.
    I look forward to answering your questions.
    [The statement follows:]
       Prepared Statement of Lieutenant General Richard W. Scobee
    The Air Force is a Total Force.
    The Air Force Reserve is a critical component of this Total Force 
and a vital part of our national defense. Our 70,000 Citizen Airmen are 
operationally integrated with their Active Component counterparts. We 
fly as one, train as one, and fight as one.
    The Air Force Reserve provides cost effective strategic depth, 
rapid surge capability, and operational support to the joint force. We 
supply the manpower and capabilities needed to fill combatant commander 
requirements. We also provide critical rapid response, allowing the Air 
Force to quickly react to unforeseen events, such as natural disasters 
and contingencies, and we will be called upon to supply the manpower 
required for the high-end fight.
    We also provide daily operational support to the joint force by 
participating in Air Expeditionary Force taskings, filling Active 
Component manpower shortfalls, and providing manpower augmentation 
during operations tempo increases. Our personnel train both Reserve and 
Active Component members in multiple mission areas, to include 
assisting Total Force pilot production.
    In addition to world-wide military operations, the Air Force 
Reserve partners with and supports a number of Federal and civil 
organizations, including the Drug Enforcement Agency, the Federal 
Bureau of Investigation, the Federal Emergency Management Agency, the 
National Aeronautics and Space Administration, the National Oceanic and 
Atmospheric Administration, and a variety of civilian education and 
research institutions. We participate in and assist with numerous 
efforts, including humanitarian and disaster response actions, 
international counter-drug operations, education and technology 
initiatives, and global scientific research programs.
    The Air Force Reserve offers a career extension opportunity for 
separating Active Component members. The accession of trained personnel 
allows the Air Force to retain fully qualified Airmen and saves 
millions of dollars each year in training costs. The retention of this 
talent increases the readiness of the Reserve component and sustains 
the capabilities of the Total Force.
Strategic Environment
    For two decades, Air Force operations have focused on counter 
terrorism and counter insurgency objectives. During ten of the last 11 
years, budget cuts and the unpredictable appropriation of funds by 
Continuing Resolutions and the Budget Control Act degraded readiness 
across the Department of Defense. The Air Force Reserve was forced to 
stretch fiscal appropriations, deferring aircraft modernization, 
infrastructure upgrades, and equipment purchases. These shortfalls, 
combined with decreased training funds, reduced our overall readiness.
    The re-emergence of great power competition necessitates that we 
rapidly restore our readiness and modernize our force. We must be able 
to engage in peer and near-peer conflict in the future operating 
environment. The battlespace of tomorrow will be drastically different 
from that of yesteryear, as technological advances are changing the 
nature of conflict, expanding warfare into new domains and increasing 
the need for certain key capabilities. We must enhance critical mission 
sets and ensure we have the resources to meet emerging requirements.
The Air Force Reserve Today and Tomorrow
    In any future conflict, the Air Force will be at the forefront. 
Therefore, the Air Force Reserve must be prepared to fly, fight, and 
win in tomorrow's battlespace and to simultaneously operate in multiple 
warfighting domains. We must ensure we have the right force mix and the 
necessary capabilities to defeat any adversary. At the same time, we 
must sustain our current level of support to the joint force and 
maintain our readiness to respond to present-day contingencies.
    The Air Force Reserve's warfighting ability depends on the timely 
allocation of funds. Predictable budgets allow us to deliberately 
program our spending, maximizing the readiness return of expenditures. 
On time allocations enable us to fully execute our flying hour and 
Reserve Personnel Appropriation funds, which we rely on to maintain a 
trained, ready force. Predictable allocations also facilitate 
modernization efforts, allowing us to sustain weapons systems and to 
systematically upgrade our infrastructure.
    The on time allocation of the fiscal year 2019 budget greatly 
bolstered Air Force Reserve readiness. We know this achievement 
required considerable effort by Congress, and we thank you for your 
hard work. In addition to using this allocation to conduct training and 
complete readiness requirements, we also funded much needed 
construction, infrastructure improvements, and weapons systems 
sustainment. However, we still have significant backlogs in these 
areas, and we continue to face challenges associated with maintaining 
an aging aircraft fleet.
    The Air Force Reserve's ability to support the joint force is 
directly tied to our integration within the Total Force. Our mission 
effectiveness is maximized when we maintain parity with the Active 
Component through the concurrent fielding and upgrading of airframes 
and equipment. Our interoperability and integration is further enhanced 
by associations between Active Component and Reserve units, which 
provide multiple readiness and cost saving benefits to the Total Force.
    The Air Force Reserve must grow our capabilities to meet the 
demands of the future operating environment. In the past year, we 
activated our first cyber wing and our first intelligence, 
surveillance, and reconnaissance wing, which will serve as a base for 
the further expansion of these mission sets. Our fiscal year 2020 
budget request aligns our space assets with the operational 
requirements of the Space Mission Force. We will continue to grow these 
evolving and emerging mission sets, while ensuring we have the proper 
force mix across the enterprise.
    The recruitment, hiring, and retention of full time personnel, 
particularly pilots and maintainers, is currently the Air Force 
Reserve's most significant readiness challenge. We are implementing 
multiple initiatives to remedy the current shortage, including 
converting approximately 1,200 Air Reserve Technician positions to 
Active Guard/Reserve over a three year period.
    The Air Force Reserve has built our success on the hard work of our 
Airmen. They are an incredibly talented, experienced, and diverse 
force, and ultimately, they are responsible for executing the mission. 
Therefore, it is imperative that we take care of our Airmen and their 
families. We are committed to ensuring that our Reserve Citizen Airmen 
are resilient warfighters and that Reservists and their families have 
the support, resources, and care they need.
               implementing the national defense strategy
Air Force Reserve Strategic Priorities
    The National Defense Strategy is the United States' plan to 
compete, deter, and win in the future warfighting environment. 
America's military force must be able to defend the homeland, provide a 
safe, secure, and effective nuclear deterrent, defeat a powerful 
conventional enemy, deter opportunistic aggression, and disrupt violent 
extremists in a cost-effective manner.
    To align our efforts with National Defense Strategy objectives and 
Air Force directives, the Air Force Reserve established three 
priorities. First, we must Prioritize Strategic Depth and Accelerate 
Readiness to ensure we have the manpower and capabilities required to 
support the joint force and to engage in the high end fight. Secondly, 
we must Develop Resilient Leaders, who can operate independently and 
generate combat power in tomorrow's battlespace. Finally, we must 
Reform the Organization, optimizing our warfighting capabilities and 
internal processes to cost effectively maximize mission capabilities 
and ensure we provide the highest levels of support to our Airmen and 
their families.
    The Air Force Reserve is proactively implementing these priorities, 
which will guide future initiatives at all levels of the command. This 
effort will ensure we are in line with the National Defense Strategy, 
facilitate mission readiness, and improve all aspects of our 
organization.
The Air Force Reserve and the Air Force We Need
    Last year, the Air Force conducted an analysis of the force 
structure and capabilities required to implement the National Defense 
Strategy, which indicated that the Total Force should grow to 386 
operational squadrons.
    The Total Force currently has 312 operational squadrons. This 
number includes the Air Force Reserve's operational squadrons. When 
conducting the analysis, the Air Force assumed that the current ratio 
of Active Component to Reserve Component forces would remain constant. 
This study was focused on determining the needed combat capabilities, 
and specified the required number of operational squadrons by mission 
set, not by component.
    For any planned future growth, the Air Force will evaluate which 
missions are best suited to each component. Although the distribution 
of mission sets and capabilities is still to be determined, the Air 
Force Reserve will grow in proportion to the Active Component, adding 
both operational units and the necessary support personnel to sustain 
these forces.
Associations
    The association of co-located Active Component and Reserve units 
effectively amplifies readiness by improving the integration and 
interoperability of Reserve personnel. Associated flying units operate 
the same weapons systems, which enables Reservists to train on the 
Total Force's newest airframes and equipment. This provides multiple 
second and third order benefits to the Active Component and the 
Reserve, ultimately reducing operational and training costs for both. 
Associations also facilitate Reserve support to the Active Component 
and bolster the Reserve's ability to capture separating Active 
Component members, retaining their skills in the Total Force.
    Our associations are not limited to flying units. There are 
associated Air Force Reserve units in multiple mission areas, including 
intelligence, cyber, and space, and support functions, such as 
maintenance, training, civil engineering, and security forces. These 
associations provide the same cost savings, integration, and 
interoperability benefits garnered by flying unit associations.
    Currently, there are approximately 70 associations between the Air 
Force Reserve and the Active Component. Various Active Component 
entities have proposed additional associations, which include space, 
cyber, and intelligence, surveillance, and reconnaissance (ISR) 
associations. The Air Force Reserve favors adding associations in 
locations and mission areas which will benefit the Air Force. We 
strongly support increasing the number of active associations, where 
the Reserve component is the lead unit and the Active Component is the 
associate.
Nuclear Deterrence
    The Air Force Reserve's Nuclear Deterrence Operations force 
consists of one nuclear strike wing, seven nuclear command, control, 
and communications capable command posts, and seven tanker wings with 
nuclear air refueling missions. We are also in the process of 
converting two additional wings to tanker operations, which are 
projected to achieve nuclear capability within 2 years.
    The Air Force Reserve conducted fifteen Nuclear Deterrence 
Operations assessments in 2018. These assessments validated that our 
nuclear tasked units were properly equipped and manned, verified that 
personnel were adequately trained, and confirmed our ability to 
generate nuclear forces. The Air Force Reserve's Nuclear Deterrence 
Operations Forces are mission ready.
Emerging and Evolving Missions
    Modern technology has expanded warfighting into new domains, 
revolutionizing how we fight and exposing us to new threats. Technology 
greatly enhances our combat capabilities, but our increasing reliance 
on integrated systems also creates potential vulnerabilities, 
necessitating the protection of critical assets. To retain our military 
advantage and to guard against new threats, the Air Force Reserve must 
keep pace with the current rapid rate of technological development. We 
must ensure we have the tools, capabilities, and skills required for 
future conflict.
    We live in a world that is connected by digital systems, which 
support everything from communications to infrastructure. These systems 
span the globe. However, there are no borders in the digital world, 
making the United States vulnerable to attack from any adversary with 
an Internet connection. Therefore, we must protect our information 
systems, and we must be prepared to engage our enemies in the cyber 
realm.
    To optimize our cyber defenses, the Air Force Reserve is shifting 
to precision cyber security, which protects data at rest, data in 
transit, and the identity of individuals accessing the data. This 
focused approach will provide better protection than our current method 
of attempting to secure every item connected to our networks, which has 
become unfeasible. We also plan to transition some of our information 
technology support, service, and sustainment to the private sector, 
allowing our personnel to focus on mission assurance and active 
defensive cyber operations.
    The ability to rapidly share information between warfighting assets 
will create unprecedented synchronization in the employment of forces, 
magnifying our situational awareness on the battlefield and amplifying 
our combat effectiveness. This synchronization is dependent on our 
capacity to gather, analyze, and synthesize data. Robust ISR 
capabilities are critical to the future fight, especially as the 
geopolitical environment shifts to great power competition.
    Cyber and ISR capabilities will only increase in importance as 
technology continues to advance. To retain our military advantage in 
combat and to protect against threats below the level of combat, we 
must have both cyberspace superiority and information superiority. The 
demand for Air Force Reserve support in these two key mission areas is 
already high, and we are posturing our force to ensure we can meet 
these demands.
    The recent activation of the Air Force Reserve's first cyber and 
ISR wings provides a foundation for future expansion in these mission 
sets. We built these units to maximize our capabilities within each 
function. Our newly formed cyber wing is the only wing in the Total 
Force to operate all Air Force defensive cyber systems, and our ISR 
wing is the most mission-diverse ISR wing in the Air Force. 
Furthermore, we capitalize on our Reservists' civil experience to 
enhance our mission capabilities and foster industry partnerships. Our 
diversity and career field expertise allow us to meet all Total Force 
support requirements in these critical missions, and we are postured to 
grow our forces to meet future needs.
    In any conflict, control of the high ground offers a great 
advantage. Space is the ultimate high ground. Our adversaries have 
realized this, and they seek to level the playing field by expanding 
warfighting operations into space. We must be prepared to defend our 
space assets and interests.
    The Air Force Reserve is already a key contributor to the Space 
Mission Force. We conduct multiple space functions, including command 
and control, satellite operations, missile warning and missile defense, 
counter space operations, and electronic warfare support. We also 
provide launch and range support, conduct testing and training, and 
provide manpower for the Combined Space Operations Center. In response 
to Air Force Space Command needs, our fiscal year 2020 budget request 
rebalances 63 manpower billets into our Space Mission Forces by 
removing them from other lower priority mission sets. This is intended 
to right-size our space assets and will ensure we can meet future 
United States Space Command support requirements.
                          rebuilding readiness
Funding Readiness
    The Air Force Reserve relies on flying hour funding and Reserve 
Personnel Appropriation (RPA) funds to maintain individual readiness. 
Flying hour funding ensures our aircrews have sufficient training and 
maintain required currency and proficiency. RPA funding gives us the 
ability to provide extra training when needed. We also use RPA funds to 
temporarily backfill vacancies and to augment our full time force as 
required to maintain readiness.
    The Air Force Reserve executed 99 percent of both our fiscal year 
2018 flying hour and RPA budgets, and we are on track to execute all 
fiscal year 2019 flying hour and RPA funds. The flying hour funding 
requested in our fiscal year 2020 budget currently matches our 
anticipated execution. Any decrease in this appropriation request would 
impact our readiness.
Pacing Squadrons
    Pacing squadrons are the operational squadrons required during the 
opening days of a peer fight. A few of these extremely high priority 
units are Air Force Reserve squadrons, and some of our associate units 
support Active Component pacing squadrons. We must be capable of 
providing the strategic depth demanded by a peer fight, therefore we 
are focusing resources on these pacing squadrons and supporting units 
to ensure they achieve readiness within the required timelines.
Unit Readiness
    The readiness of our force is paramount. Last year, with the help 
of Congress, the Air Force Reserve reprogrammed and distributed an 
additional $90 million in RPA funding to facilitate the completion of 
readiness related tasks and training. We also allocated operations and 
maintenance funds for the purchase of readiness related equipment and 
training items, to include resources for Chemical, Biological, 
Radiological, Nuclear and Explosive (CBRNE) requirements, Ability To 
Survive and Operate requirements, and weapons qualification training. 
We added a thirteenth drill weekend to focus on CBRNE training, weapons 
qualification, and Self Aid/Buddy Care (SABC) training. As a result of 
these actions, 80 percent of our personnel now meet weapons training 
requirements and approximately 90 percent meet CBRNE and SABC training 
requirements.
    The Air Force Reserve is a predominantly part time force. We must 
ensure optimal use of our Airmen's limited time to maintain both 
individual and unit readiness. However, over the past decade, the Air 
Force Reserve has shifted ancillary and support taskings to the 
individual Reservist. This increased the time Airmen spent on 
administrative items and reduced the time available for training and 
mission requirements, impacting readiness.
    To restore our readiness, we must reduce the administrative 
requirements placed on the individual Airman. Last year, the Chief of 
the Air Force Reserve instructed the force to eliminate unnecessary 
requirements by directing all Reservists to ``cease, re-align, or 
consolidate duties not directly tied to readiness.'' To facilitate this 
effort, we assessed our internal processes and eliminated over 200 
self-inspection checklists and several instruction supplements. Both 
these actions provided our Airmen additional time to focus on readiness 
and ensured the Air Force Reserve was in alignment with Secretary of 
the Air Force guidance to reduce ancillary requirements across the 
Total Force.
    The Air Force Reserve's fiscal year 2020 budget request aims to 
further alleviate the administrative burden on our Airmen by increasing 
the number of both full and part time squadron support personnel across 
the command. The addition of these support personnel will reduce the 
non- mission related tasks requirements levied on the individual 
Reservist and allow our Airmen more time to complete training and 
readiness requirements.
Medical Readiness
    In the past year, the Air Force Reserve has made great gains in 
medical readiness. We streamlined our headquarters level medical case 
processing, eliminating a backlog of more than 2,000 cases. Timely 
medical review expedites the recruitment process for critical career 
fields, such as pilots and medical professionals, and minimizes the 
time Selected Reserve members spend in a non- ready status while 
awaiting medical review.
    The Air Force Reserve is also increasing full time support in 
Reserve Medical Units across the enterprise. The additional support 
will improve the quality of medical case submissions, reducing 
processing time, and will improve unit ability to complete physicals. 
As a result, our Airmen will spend less time waiting in the medical 
clinic and more time training.
    We also removed participation restrictions on members with duty 
limiting medical conditions. Previously, Reservists with duty 
limitations were not allowed to attend training without approval from 
the Air Force Reserve Command Surgeon General. This negatively impacted 
both individual and unit readiness, as the majority of these members 
were physically capable of being present at drill, completing some 
training requirements, and assisting with squadron operations. Under 
the new policy, these individuals will be able to participate in 
training within the limitations set by medical personnel. Commanders 
will consider mission requirements, physical limitations, and safety 
when making the determination to restrict participation for individuals 
on medical profile.
Full Time Manpower
    Overall, the Air Force Reserve is slightly below end strength 
targets and we are experiencing a shortage of full time and part time 
personnel in certain critical career fields. These vacancies decrease 
our overall readiness, put undue strain on our full time support and 
hinder our ability to train our part time force. We have backfilled 
some of our full time vacancies with RPA support, but this is only a 
stopgap measure which is dependent on volunteerism. To ensure mission 
readiness, we must restore our full time staffing levels.
    Our full time force is a mix of civil service Air Reserve 
Technicians (ART), which comprise the bulk of our full time support, 
and Active Guard/Reserve (AGR) personnel. The current manpower shortage 
is a direct result of low ART manning. We have a relatively low number 
of AGR vacancies. This shortage is most critical in the pilot and 
maintenance communities.
    We are short approximately 360 full time pilots. The Air Force 
Reserve does an excellent job capturing separating Active Component 
pilots, however, almost all affiliate in part time status, forcing us 
to rely on new hires to fill full time vacancies. We are currently 
allocated 96 undergraduate pilot training slots per year. To ensure we 
use all allocations, we now hold six annual selection boards. We filled 
99 percent of our fiscal year 2018 our pilot training slots and are on 
track to use all fiscal year 2019 slots, having already filled over 60 
allocations.
    The Air Force Reserve is actively engaged with the Aircrew 
Management Council regarding national pilot production. We are also 
working with accredited aviation colleges and universities to develop 
solutions to the nationwide shortage and have created a pathway program 
for pilot candidates which is similar to those used by major airlines.
    In addition to our pilot shortfalls, we also have a deficit of 
approximately 1,500 full time maintainers. This lack of trained and 
fully qualified maintenance personnel has directly resulted in a 
decrease in aircraft availability and mission capable rates.
    The Air Force Reserve's maintainer shortage is a subset of our ART 
manning shortage, which shares the same underlying causes. Nearly all 
of our full time maintenance authorizations are ART positions. In 
certain career fields and geographic locations, ART salaries and 
benefits are not competitive with the civilian industry. In addition, 
the cumbersome and lengthy civil service hiring process has prolonged 
the duration of vacancies and caused us to lose candidates.
    The issues which currently hinder our ART manning are much less 
prevalent in our AGR force. AGR positions offer both higher salaries 
and greater benefits, and the AGR assignment process is shorter and 
more streamlined than the civil service hiring process. As a result, 
AGR hiring and retention rates are higher, and AGR vacancies are of 
shorter duration.
    The Air Force Reserve is implementing multiple recruitment and 
retention initiatives for mission essential and critically manned 
career fields, such as bonuses and special salary rates. This includes 
incentives specific to ARTs, pilots, and maintainers. We have also 
adjusted and revised policies to allow for greater retention in 
critical career fields and removed internal barriers to improve 
recruiting and decrease hiring timelines.
    Air Force Reserve readiness depends on sufficient end strength and 
the adequate manning of all career fields. To enhance recruitment, we 
are increasing the size of our recruiting force, and we now have 
recruiters dedicated to ART hiring. We are also targeting our 
recruiting efforts to hire personnel in critically manned career fields 
and individuals with in-demand skill sets. In addition, we are offering 
recruitment bonuses and constructive credit for new hires in certain 
career fields.
                         modernizing the force
Modernization
    The Air Force Reserve owns some of the oldest airframes in the 
Total Force. The average aircraft in our inventory is 37 years old, 9 
years older than the average Active Component aircraft.
    Older aircraft are difficult to maintain, requiring more time and 
resources to operate. Maintenance needs increase as an airframe ages, 
and older aircraft are more prone to corrosion. Sourcing parts for 
these aircraft can be challenging, as certain components are no longer 
in production. Eventually, it becomes cost prohibitive and too time 
consuming to maintain aging platforms. Therefore, fleet modernization, 
recapitalization, and weapons systems sustainment are critical to 
maintaining Air Force Reserve mission readiness.
    The acquisition of new platforms, such as the F-35 and the KC-46, 
ensures the Air Force Reserve has the capabilities required for the 
future fight. The battle management systems on board these platforms 
are essential for multi-domain operations. We are currently in the 
process of upgrading certain legacy airframes with the capabilities 
required for the future fight, which includes these battle management 
systems. Recent weapons system modernizations have included aircraft 
radar and targeting enhancements, defensive systems upgrades, and 
datalink and communication system upgrades.
Concurrent Fielding
    The Air Force Reserve's operational abilities are tied to our 
ability to integrate into the Total Force. We are most effective when 
we can operate interchangeably with our Active Component counterparts. 
Therefore, whenever possible, we must maintain parity with the Active 
Component.
    The concurrent fielding of new airframes, aircraft upgrades, and 
other equipment allows us to maintain operational parity and enables 
integration with the Active Component. The Air Force Reserve can only 
provide strategic depth and operational support to the joint force in 
mission areas where our personnel are trained on the required weapon 
system. Therefore, concurrent fielding maximizes our ability to support 
Active Component missions.
Infrastructure
    The fiscal constraints of the past 10 years have created a backlog 
in Air Force Reserve construction and infrastructure improvement 
projects. We currently estimate over 120 future year military 
construction (MILCON) projects, which will cost approximately $890 
million. We also require approximately $1.53 billion to fund Facility 
Sustainment, Restoration and Modernization (FSRM) projects.
    Both MILCON and FSRM projects are prioritized based on multiple 
factors, which include mission impact and facility condition. In fiscal 
year 2019, the Air Force Reserve received $122 million in MILCON funds 
and $85 million in FSRM funding. We have requested $61 million in 
MILCON and $114 million in FSRM for fiscal year 2020. These 
appropriations will be used to fund mission-driven construction and 
modernization requirements for Air Force Reserve facilities.
   investing in the total force (service members, families, and dod 
                               civilians)
Yellow Ribbon Re-Integration Program
    Our fiscal year 2020 budget requests $17 million for the continued 
funding of the Yellow Ribbon Re- integration Program, which provides 
support and resources to deploying Airmen and their families. The 
Yellow Ribbon program began 10 years ago as a temporary initiative but 
has evolved in to a sustainable, life changing program.
    Participation in the Yellow Ribbon program is voluntary. The 
program is comprised of one pre-deployment and two post-deployment 
events. Reservists who take part are authorized to bring all dependents 
under the age of eighteen and one adult guest of any relation to 
events, which provide attendees with tools and access to resources to 
help mitigate the challenges associated with deployments and build 
reintegration skills.
    This enriching and educational program has been shown to enhance 
attendees' knowledge of critical resources. Yellow Ribbons participants 
are better prepared for deployments and to manage the stress associated 
with deployments. Airmen who attend these events are more willing to 
continue service, and their families are more supportive of their 
continued service. In fiscal year 2018, the Air Force Reserve hosted 51 
Yellow Ribbon events.
Mental Health and Suicide Prevention
    The personal resiliency of our Airmen and their family members is 
an extremely high priority for the Air Force Reserve. We have multiple 
on-base entities which provide wellness-related support for our Airmen 
and their families. We actively disseminate information about both on 
and off-base resources to our personnel through multiple channels, 
including digital communications, unit information boards, and 
commander's calls.
    The recent increase in service member suicides is particularly 
concerning. In response, the Air Force Reserve is evaluating new 
methods to prevent suicides, including using algorithms and integrated 
databases to identify at risk Airmen, and creating protective policies 
and programs to help these individuals.
    To further improve the personal resiliency of our Airmen, we are 
expanding a program which embeds medical professionals in high risk 
units. This initiative gives personnel quick and easy access to medical 
care, including mental health support, provides leaders with 
information and tools to improve the health of their unit, and may help 
predict and prevent suicide.
    The most common mental health issues among Air Force Reserve 
members are anxiety and depression, similar to that of the general 
population. We are proactively addressing stressors associated with 
military service, and we conduct person to person mental health 
evaluations during both annual and post-deployment medical screenings 
to monitor individual wellness.
    There is a Violence Prevention Integrator on all nine Air Force 
Reserve host installations and at Fort Worth Naval Air Station Joint 
Reserve Base, where we are the lead Air Force wing. All other Air Force 
Reserve units are tenants on Active Component installations and are 
provided this service through the host unit program. Air Force Reserve 
medical facilities are staffed with a full complement of mental health 
specialists. We are evaluating requirements for integrated medical 
support, including mental health support, in operational units.
                            fiscal year 2020
    In the past year, the Air Force Reserve enhanced readiness and 
improved mission capabilities. Our fiscal year 2020 budget request will 
allow us to continue these efforts. The appropriation and allocation of 
the requested funds will enable us to provide support to the joint 
force while we further ongoing preparations for the future fight. We 
will continue to increase readiness throughout our organization, by 
training our personnel, upgrading and modernizing weapons systems, 
improving our infrastructure, and enhancing our interoperability as 
part of the Total Force. This budget request will boost manning levels, 
preserve our strategic depth, and posture our force to meet future 
operational requirements. We thank you for your continued support as we 
ensure the Air Force Reserve remains a combat ready force that is 
prepared to fly, fight, and win for years to come.

    Senator Shelby. Vice Admiral McCollum.
STATEMENT OF VICE ADMIRAL LUKE M. McCOLLUM, CHIEF, NAVY 

            RESERVE
    Admiral McCollum. Good morning, Chairman Shelby and Ranking 
Member Durbin and the distinguished members of the 
subcommittee. It is my distinct honor to report on the state of 
America's Navy Reserve, which is a highly skilled and integral 
part of the Navy's enduring and worldwide fighting force.
    I come here today representing the 59,000-strong Navy 
Reserve, a highly skilled addition to the Navy's total force 
serving worldwide in not only operationally capable roles but 
fulfilling requirements in all geographic combatant commands. 
They are strategically designed for full mobilization and in 
support of contingency operations at any time.
    In balancing these two directives, we continue to strive to 
maintain a steadfast focus on building warfighting readiness in 
support of the requirements outlined in the National Defense 
Strategy.
    Every day I am reminded of and grateful for the sacrifices 
that our men and women make while they are serving.
    This morning we have over 3,045 reserve sailors who have 
left their families and their employers to serve in some of the 
most austere locations around the globe. Without their 
unwavering support of these families, these reserve sailors 
would not be the force multipliers they are today.
    I am lucky enough this morning to be joined by one of those 
loving family members today, as my wife, Leanna, is here to 
help me represent the families of our sailors.
    I believe I speak for all my colleagues here as I offer my 
most sincere thanks to this committee for your support.
    Focused on the objectives of the National Defense Strategy 
and warfighting readiness, we are building a more lethal Navy 
Reserve. PB-20 is the mechanism that allows us to continue to 
focus on strategic depth toward this end.
    The Navy Reserve utilizes two key enablers--discretionary 
RPN and flexible NGREA funding--to generate capability and 
operability with the total force. Your continued support to 
ensure these accounts remain robust, consistent, and 
predictable is critical to our success.
    The capabilities of the Navy Reserve are focused on 
bringing agile combat forces to the fight where and when our 
Nation needs, with an investment strategy focused on a balance 
of readiness, wholeness, and investment initiatives. 
Accordingly, the recapitalization of aging Navy Reserve 
hardware is critical to ensuring the highest levels of 
readiness and interoperability with the active component.
    PB-20 is prioritized accordingly. Your support of the C-130 
Tango avionics upgrade investment through PB-20 is very much 
appreciated.
    It also brings the Navy's Maritime Patrol P-8 inventory up 
to 117, and should additional resources become available, the 
Navy included P-8s on the unfunded priority list to support the 
recapitalization of the Navy Reserve's force toward a validated 
wartime requirement of the P-8s of 138.
    This also allows these Navy Reserve squadrons in Whidbey 
Island and Jacksonville to continue to operate beyond 2023.
    Similar to aviation, recapitalization of expeditionary 
force assets within the Navy Reserve is equally important, and 
your support of the 40-foot patrol boats and the Joint Reserve 
Intelligence Centers, including cyber capability and these 
upgrades in PB-20, is very much appreciated.
    In closing, I could not be prouder to serve as the leader 
of the Navy Reserve force. Every time I visit our sailors 
around the world in the 123 locations of our reserve centers 
across the U.S., whether it is an aviation squadron deployed or 
an individual sailor in Afghanistan, I can tell you I come away 
inspired with their professionalism, the sincere dedication to 
mission, their pride in their civilian skills that they bring 
to the fight as well. And it brings the total warfighting 
lethality to the total force.
    On behalf of the Navy and Navy Reserve, I thank you for 
your support and look forward to your questions.
    [The statement follows:]
          Prepared Statement of Vice Admiral Luke M. McCollum
    Chairman Shelby, Vice Chairman Durbin, and distinguished Members of 
the Subcommittee, as Chief of Navy Reserve it is my distinct honor to 
report to you on the state of the United States Navy Reserve and to 
discuss our fiscal year 2020 budget request.
    America's Navy Reserve delivers strategic depth and operational 
capability to the Navy, Marine Corps, and Joint Forces. An integral 
part of the United States Navy, the Reserve Component is comprised of 
101,000 citizen Sailors; to include 48,000 Selected Reservists, 43,000 
Individual Ready Reservists and 10,000 Full Time Support members, from 
every State and territory. On any given day, roughly 20 percent of the 
Selected Reserve Component is operational, delivering critical support 
to our forces around the globe. Historically comprising less than 2 
percent of the Navy's total annual budget, Navy Reserve Sailors have 
mobilized over 84,000 times to every theater of operation since 2001, 
including 3,310 mobilizations in fiscal year 2018.
    Aligned with guidance from the National Defense Strategy and the 
Chief of Naval Operations Design for Maintaining Maritime Superiority 
2.0, the Navy Reserve is rebalancing to meet the dynamic challenges of 
today and the threats of tomorrow. We are building a more lethal and 
ready force, focused on capabilities, as an essential element of naval 
power in an era of great power competition.
                       strategic force readiness
    The Navy Reserve's guiding principles are lethality and 
warfighting. We are a ready and lethal military force, maximizing value 
to the Nation through efficient operation and modernizing the way we do 
business. We effectively support and complement the Active Component, 
while making optimal use of talented Reserve Sailor's skill sets to 
increase total force proficiency and capability. We are accelerating 
the impact of the Navy Reserve mission in the new competitive global 
environment as we build strategic readiness.
Fiscal Predictability
    On behalf of the entire Navy Reserve, their families and employers, 
I want to personally thank you and this committee for a full fiscal 
year 2019 on-time appropriation. The reduced fiscal uncertainty has 
gone a long way toward increasing operational efficiency, readiness and 
unit morale. Predictable and dependable funding ensures that Navy 
Reserve Sailors are able to provide consistent and timely operational 
support to the Total Force. Discretionary Reserve Personnel, Navy (RPN) 
funding is the primary fiscal means by which the Navy Reserve provides 
this support. Current RPN funding level supports 31 percent of 
Combatant Commander operational demand. Your continued support to 
ensure robust, consistent, and predictable RPN funding is the most 
important enabler for maintaining force readiness and Navy Reserve 
operational mission accomplishment.
Sailor First Initiatives
    To enable Force readiness, Navy Reserve Sailors balance many 
priorities associated with their civilian jobs, family commitments, and 
their duties as part-time Sailors. The Navy Reserve utilizes several 
tools to help these Sailors manage the stressors that can accompany 
this busy lifestyle. The Psychological Health Outreach Program (PHOP) 
is one of the most successful models to date, ensuring Reserve Sailors 
have access to appropriate psychological healthcare services. PHOP 
counselors provide psychosocial briefings, including, Operational 
Stress Control and behavioral health screenings to Reserve Sailors 
across the Nation. PHOP counselors use the Resiliency Check-in tool to 
provide one-on-one behavioral health assessments to Sailors new to the 
Navy Reserve to include on-the-spot initial assessments and follow-up 
referrals. This has become a proven way to ensure Sailors have access 
to counseling support from specially trained providers in dealing with 
common issues associated with the military lifestyle, including the 
stress related to the mobilization cycle, family separation and post-
mobilization reintegration.
    Because many Reserve Sailors and families reside in remote or rural 
areas and serve part- time roles, their eligibility for military 
treatment options is limited. PHOP covers any gaps in mental healthcare 
for Reservists, regardless of duty status or geography. In the past 
year, BUMED's PHOP Program Manager and PHOP counselors teamed with the 
Navy Reserve to strengthen PHOP support and involvement in suicide 
prevention. During fiscal year 2018, the program used 56 licensed 
mental health professionals from 29 locations to reach over 42,000 
Sailors and their family members.
                          navy reserve forces
    The Navy Reserve force structure focuses on interoperability and 
the operational effectiveness of Sailors and platforms. Reserve Sailors 
train and work alongside Active Component (AC) counterparts and units, 
creating synergy and cohesion between components. Reserve Sailors 
provide a ready rapid response to calls for worldwide support, across 
many mission areas, often on short notice.
Commander, Navy Reserve Forces Command (CNRFC)
    CNFRC operates six regional headquarters and 123 Navy Operational 
Support Centers (NOSCs), located in all 50 States, Puerto Rico, and 
Guam. NOSCs collectively serve as drilling locations and provide 
administrative support to over 1,400 RC units. NOSCs reside on and off 
DoD installations, a mix of stand-alone facilities, Navy-Marine Corps 
Reserve Centers, and joint Armed Forces Reserve Centers. These NOSCs 
are the readiness generating epicenters of the Navy Reserve. CNRFC and 
its NOSCs offer a unique response capability and range of options in 
order to source Combatant Commander requirements--from mobilization of 
an entire unit to activation of a single Individual Augmentee Sailor. 
This model delivers increased flexibility, with both operational 
capacity and strategic depth, to the total force, in a dynamic global 
security environment.
    As of late-January, over 3,000 Navy Reservists were mobilized and 
1,408 were preparing for mobilization. These sailors support Combatant 
Commands around the globe, and individual mobilizations add to the 
broad and diverse set of operational support missions the Navy Reserve 
executes on a daily basis, including Expeditionary Warfare, Naval Air 
Warfare, Fleet Air Logistics, Cyber Warfare, Unmanned Aerial Vehicles, 
and Shipyard Maintenance.
Commander, Naval Air Forces Reserve (CNAFR)
    CNAFR comprises three air wings, two Joint Reserve Bases and one 
Naval Air Facility.
    Fleet Logistics Support Wing and Tactical Support Wing reside at 
Naval Air Station-Joint Reserve Base Fort Worth, TX, while Maritime 
Support Wing is headquartered at Naval Air Station North Island, CA. 
Naval Air Forces Reserve Joint Reserve Bases are in Fort Worth, TX, New 
Orleans, LA, and the Naval Air Facility is in Washington, D.C. In 
addition to these standalone commands, the Navy Reserve operates 
multiple Squadron Augment Units which directly support various AC Navy 
squadrons around the country. Navy Reserve owns and flies approximately 
150 aircraft, supporting the Navy Total Force and acting as necessary 
strategic depth in both hardware and the 8,700 aviation professionals 
onboard.
            Reserve Maritime Capabilities: P-3 and P-8
    Recapitalizing the Navy Reserve's Maritime Patrol and 
Reconnaissance Force (MPRF) capability is the #1 equipment priority, as 
illustrated in the 2019 National Guard and Reserve Equipment Report. 
The Navy's surge capacity within MPRF consists of two Reserve patrol 
squadrons operating legacy P-3C Orion aircraft. These two squadrons 
create 13 percent of Navy's current Intelligence, Surveillance and 
Reconnaissance capacity and provide Combatant Commanders with a vital 
strategic asset.
    The P-8A Poseidon, a 737-derivative aircraft, replaces the P-3C 
maritime patrol aircraft, providing broad area, full spectrum, anti-
submarine warfare, armed anti-surface warfare, and networked maritime 
Intelligence, Surveillance, and Reconnaissance capabilities. Recent 
changes to the National Defense Strategy and Defense Planning Guidance 
caused the Navy to review the current MPRF structure and the P-8A 
warfighting requirement. To ensure compliance with these directives, 
and to deliver this capability to the warfighter, the requirement was 
increased from 117 aircraft to 138 aircraft. This requirement gap 
represents an opportunity for the Reserve Component to provide both 
operational value and strategic depth to the total force. 
Recapitalization of the two RC squadrons currently operating the legacy 
P-3Cs, through fiscal year 2022, with additional P-8A aircraft, 
aircrews, and associated military construction, will buy down 
warfighting risk. VP-62 (Jacksonville, FL) and VP-69 (Whidbey Island, 
WA) offer the Navy a lethal strategic reserve by retaining trained and 
experienced military aircrew who are likely to operate similar 
commercial aircraft in their civilian career.
            Reserve Logistics: C-40 and C-130
    The Navy Reserve air logistics component, made up entirely of RC 
sailors, fulfills the Navy's requirement for the Navy Unique Fleet 
Essential Airlift (NUFEA) capability. Whether in direct support of 
combat or other required operations, Navy Reserve executes 100 percent 
of the Navy's organic intra-theater air logistics support mission using 
C-40A and K/C-130T aircraft.
    These squadrons provide responsive, flexible, and rapidly 
deployable air logistics support to the Navy and Marine Corps year-
round. With crews always ready to deploy, they fill a vital strategic 
role toward combat logistics sustainment when full mobilization is 
required. As great power competition builds, strategic assets such as 
these become ever more paramount.
    Aircraft modernization is a critical step in preserving NUFEA. More 
than 17 years of increased operational tempo within a constrained 
procurement environment has taken a great toll on the aircraft and 
equipment that our Sailors operate. The Navy Reserve integrated force 
structure depends on the ability to quickly and seamlessly assimilate 
with active units for mission execution. As Navy continues to 
prioritize investments in advanced aircraft, weapons systems and 
equipment, RC assets must be resourced to ensure the highest levels of 
safety, availability, interoperability, and mission employment. We will 
continue to leverage the availability and readiness provided by modern, 
compatible hardware for maximum effective employment.
    We appreciate this committee's continued steadfast support, which 
helped Navy Reserve to purchase two additional C-40A aircraft which, 
once delivered to Kaneohe Bay, HI, will fulfill the risk-adjusted 
wartime inventory requirement of 17 aircraft and bring down the 11-year 
average airframe age.
    Our 24 K/C-130T aircraft average 24 years of age, resulting in 
maintenance issues that heavily degrade their dependability. As many 
Navy leaders have previously testified, the K/C- 130T propeller 
grounding bulletin issued by Naval Air Systems Command in September of 
2017 caused a huge readiness gap in our NUFEA capability. While the C-
130 aircraft were grounded, C-40A operational tempo was greatly 
increased to recover the capability degradation. The end result was not 
a decrease in lift support, but increased consumption of C-40A capacity 
that we expect to last for years to come. Congress was instrumental in 
funding new propeller systems for the K/C-130T to get them airborne and 
address the number one readiness degrader and ensuring rapid recovery 
of the capability for now and sustainability into the future.
    For continued future sustainment, modernization of the K/C-130T 
fleet is necessary. The T56 3.5 Engine Upgrade addresses the number two 
readiness degrader for K/C-130T and will result in a 23 percent 
increase in engine longevity and a 12-17 percent fuel efficiency 
savings. The Navy K/C-130T fleet is also in the midst of an Avionics 
Obsolescence Upgrade (AOU) program that modernizes the fleet, bringing 
the communications capability on par with current FAA and international 
flight standards, and improves safety of occupants. Continued support 
and rapid deployment of the K/C-130T Avionics Obsolescence Upgrade is 
much appreciated.
            Reserve Fighter Aircraft: F/A-18
    The 31 F/A-18A+ legacy Hornets assigned to Navy Reserve squadrons 
include some of the oldest in operation, none of which are 
interoperable with AC squadrons. In the near term, Navy is replacing 
Reserve Component F/A-18A+ aircraft with legacy F/A-18C/Ds from the 
active duty fleet. Along with Active Component F-35 and F-18E/F 
procurement, the Reserve aircraft transfer is directly linked to 
improved Super Hornet depot throughput.
    Based on AC Super Hornet and Joint Strike Fighter procurement, an 
eventual transition of RC Hornets to later generation strike fighters 
will be possible. The 24 F/A-18E/Fs from fiscal year 2019 and 24 F/A-
18E/Fs in the Navy's fiscal year 2020 request increase the pace of this 
transition. Focused attention on this process will rebuild the Navy 
Reserve's strategic reserve fighter capability.
            Reserve Adversary Aircraft: F-5
    The Navy Reserve supports AC pre-deployment training by supplying 
one seventh of the total annual adversary requirement. Seasoned fighter 
pilots operate F-5 Tiger aircraft that, without investment, will 
quickly reach the end of their service life. The fiscal year 2020 
budget includes the purchase of 11 F-5s which will mitigate the impact 
of the eventual service life expiration of current F-5s. Beyond this 
aircraft purchase, the long term plans for the Navy include a study to 
establish a modernized, dedicated adversary air training enterprise. 
Such a plan will leverage veteran combat pilot experience, maximize 
pilot retention in the Navy Reserve and cultivate a robust strategic 
reserve of lethal aviators.
            Special Operations and Personnel Recovery Support: HSC-85
    HSC-85, employed as the Navy's only dedicated rotary-wing special 
operations support and personnel recovery support squadron, provides 
strategic depth to the Helicopter Sea Combat community and a combat-
ready mission-flexible squadron to the Geographic Combatant Commander. 
This squadron, and the two tactical support units that emerged from the 
disestablishment of HSC-84 in 2016, offers the Navy a return on 
investment by capitalizing on the talent and experience of AC Sailors 
as they leave active duty. They share lessons learned, tactics and 
techniques with the rest of the HSC community to increase the Navy's 
overall helicopter combat capability. HSC-85 offers short-notice, 
deployable surge capability to support global contingencies while 
filling training and mission support gaps to the joint force for 
deploying special operations units. HSC-85 is a veteran squadron, 
having maintained a permanent forward deployed operational presence for 
years, supporting U.S. Africa Command and U.S. Indo-Pacific Command 
mission--critical requirements. HSC-85 is a valuable complement to the 
Navy Helicopter Sea Combat community.
Commander, Naval Information Force Reserve (CNIFR)
    CNIFR, Ft. Worth, TX, is the executive agent for nine Joint Reserve 
Intelligence Centers (JRICs) located throughout the country. In 
partnership with the Defense Intelligence Agency (DIA) Joint Reserve 
Intelligence Program (JRIP), these facilities provide fully capable 
intelligence and cyber warfare centers enabling wartime readiness 
through training and operations, and real-time intelligence support to 
Combatant Commands, Combat Support Agencies, the intelligence 
community, and Navy fleets. There are a total of 28 Service-managed 
JRICs located across the country, providing Navy Reservists a ``train 
as you fight'' environment utilizing the same systems and tactics, 
techniques and procedures as the parent commands. This enables:
  --Fully-equipped and accredited intelligence production facilities,
  --Analyst-to-analyst interaction across the intelligence community,
  --Real-time transfer of operational intelligence,
  --Full integration and collaboration of the Reserve intelligence 
        community as a force multiplier, providing strategic depth to 
        our fleets and joint forces,
  --A nationwide network significantly reducing temporary duty cost by 
        allowing Information Warfare professionals to serve at duty 
        stations close to home, and
  --Capabilities to surge before crisis and continuity of operations in 
        the event of crisis.
  --Continuity of operations capabilities to enable active duty 
        commands to reconstitute C2 elements
    In partnership with the JRIP, CNIFR has committed the resources 
necessary to maintain our Navy-hosted JRICs as viable warfighting 
platforms--now and into the future. JRICs Minneapolis, Fort Worth, and 
Denver were all prioritized for upgrade to Joint Worldwide Intelligence 
Communications System (JWICS) 7.0, tripling the bandwidth of the 
platforms, comprehensively supporting today's analysis, imagery and 
CYBER mission requirements. This upgrade directly supports requirements 
identified in recent great power competition planning, and DIA's 
prioritization of the Navy JRICs directly reflects the mission 
criticality of those sites to identified fleet needs and priorities. 
The remaining Navy JRICs will be upgraded to JWICS 7.0 during fiscal 
year 2019.
    Infrastructure updates are ongoing and necessary to sustain state-
of-the-art warfighting platforms. Our current initiatives include:
  --New MILCON in New Orleans, repurposing an existing facility for a 
        new JRIC,
  --Upgrade of the electronic security systems of all Navy JRICs during 
        fiscal year 2019,
  --Renovations of JRICs Norfolk, San Diego and Millington, and
  --Evaluating options for JRICs Denver and Minneapolis.
    Collectively, these projects incorporate the latest and best 
technologies to safeguard platform security and enhance the JRICs' 
ability to operate with continuous, uninterrupted network access. The 
Navy Reserve remains fully committed to modernization and ensuring our 
Reserve Information Warfare professionals have access to the latest 
warfighting equipment and networks for optimal readiness and lethality.
Navy Expeditionary Combatant Command (NECC)
    Located at Joint Expeditionary Base Little Creek-Fort Story, 
Virginia, NECC is manned with more than 50 percent Reserve Component 
members. This subordinate command of Navy Fleet Forces Command manages 
Reserve Sailors that offers capabilities that include:
  --Littoral, Riverine and coastal warfare
  --Maritime and port security
  --Expeditionary Logistics Support
  --Expeditionary Intelligence
  --Expeditionary Combat Readiness
  --Naval Construction Force (Seabees)
    NECC Reserve Sailors, heavily leveraged for prior service 
experiences, work side-by-side their active component counterparts in 
the Navy and across the Joint Force providing invaluable expertise in 
these vital areas. NECC Forces execute full spectrum military 
operations to shape the battlefield environment, provide humanitarian 
assistance and disaster relief, and conduct major combat operations. 
The NECC model of Reserve integration is battle-tested, demonstrating 
the targeted value of strategic reserve assets. This model and the 
increased agility it enables, is poised to grow as strategic 
requirements build in this era of great power competition.
                             reserve reform
MPT&E Transformation
    Navy's Total Force Manpower, Personnel, Training and Education 
(MPT&E) modernization efforts are well underway. The Navy is 
transforming administrative and human resource processes, which have 
remained virtually unchanged for decades, in order to increase our 
ability to recruit, train, and retain the agile and lethal force of 
tomorrow. This holistic transformation effort seeks to streamline 
personnel management processes and dramatically improve quality of life 
in our most valuable resource--our Sailors--which leads directly to 
increased force readiness. Key outcomes of this transformation include:
  --Permeability between Active and Reserve Components allowing for a 
        seamless Total Force response to Fleet and Combatant Command 
        needs;
  --Timely, accurate, and auditable personnel and pay actions;
  --A seamless data environment accessible throughout the world;
  --Transforming labor intensive, antiquated processes into 
        standardized, automated ones that require less oversight;
  --Professional call centers and mobile/online self-service portals 
        with 24/7 customer service for Sailors and their families, 
        where most personnel transactions can be done virtually; and
  --Improving Fleet readiness through predictive analytics supported by 
        big data, which will enable better Sailor fit, talent matching, 
        improved retention, and agile responses to meet dynamic Fleet 
        needs.
    Our Sailors will see big dividends over the next several years from 
investments in modernizing the MPT&E Enterprise--improved performance, 
productivity, and cost efficiencies in all aspects of personnel 
readiness. Simplifying the constant toggle between civilian employment 
and military service will result in improved fleet retention and 
strategic depth for the Navy Reserve.
Duty Status Reform
    Currently there are numerous statutory authorities used when 
mobilizing RC personnel. The National Defense Authorization Act for 
fiscal year 2016 directed the Secretary of Defense to assess Military 
Compensation and Retirement Modernization Commission (MCRMC) 
recommendation #4: Consolidate current 30 RC duty statuses into 6 
broader categories and determine whether it would increase efficiency 
in the RC. DoD is developing legislation that will reform the current 
RC duty status construct pursuant to Section 513 of the 2018 National 
Defense Authorization Act.
                               conclusion
    America's Navy Reserve remains eternally steadfast, ready to 
respond when called. Our proud citizen Sailors carry the 104-year 
tradition of supporting the Navy, Marine Corps and Joint Force 
wherever, and whenever, called. We strive to ensure warfighters 
effectively accomplish all missions, as both a ready operational force 
and a veteran strategic reserve. As we rebuild strategic depth in the 
face of great power competition, a more lethal warfighting military 
component will emerge. I look forward to working with you and I thank 
you for your continued support.

    Senator Shelby. General James.
STATEMENT OF MAJOR GENERAL BRADLEY S. JAMES, COMMANDER, 
            MARINE CORPS FORCES RESERVE
    General James. Chairman Shelby, Ranking Member Durbin, and 
distinguished members of the subcommittee, thank you for the 
opportunity to appear before you today to testify on behalf of 
the Commandant of the Marine Corps about your Marine Corps 
Reserve consisting of 38,500 fully engaged and 61,000 in active 
reserve.
    I am honored to be here with my fellow reserve component 
service chiefs. Also with me today is my force Sergeant Major 
Scott Grade and the force Command Master Chief Ryan Strack.
    The mission of the Marine Corps Reserve is to stand ready 
to augment, reinforce, and sustain the active component. Along 
with the active component, we have reserve forces forward 
deployed supporting combatant command requirements.
    Over the past year, more than 2,100 reserve marines were 
mobilized supporting 35 operational requirements in each of the 
six geographic combatant commands.
    Additionally, 754 marines volunteered as individual 
augments, which filled 63 percent of the services' 
requirements.
    I am pleased to inform you that the morale of your Marine 
Corps Reserve remains high, as evident by the reserve component 
end strength maintaining 99 percent of the total requirement. I 
am consistently impressed by the professionalism, competence, 
dedication to duty, and motivation of our reserve marines. By 
their active-duty sisters and brothers, they serve selflessly 
to protect our great Nation. The way they balance family 
responsibilities, civilian lives, jobs, school, and careers is 
nothing short of extraordinary.
    At any given time, Marine Forces Reserve stands ready to 
provide a brigade-size element of reserve marines and sailors, 
fully trained for combat operations, while the remainder of our 
force is poised to augment and reinforce, given appropriate 
amounts of predeployment training based upon their wartime 
mission assignments.
    I would like to leave this distinguished body with two 
thoughts on how continued support from Congress can result in a 
more ready and lethal Marine Reserve force.
    Number one, I want to extend my gratitude for your 
continued support of the National Guard Reserve Equipment 
Appropriation. I would appreciate a greater spending 
flexibility within this appropriation in order to procure 
critical shortfall items and modernize equipment and systems.
    Number two, I would like to thank you for this year's 
appropriations. On average, the Marine Corps Reserves only have 
38 training days a year, which places an increased importance 
on adequate and timely appropriation. With your continued 
support, I can assure the reserves' predictable and 
uninterrupted training schedules to maximize personnel, 
material, and training readiness.
    I appreciate the opportunity to be here today, and I look 
forward to your questions.
    [The statement follows:]
          Prepared Statement of Major General Bradley S. James
    Chairman Shelby, Ranking Member Durbin, and distinguished members 
of the Subcommittee, it is my privilege to appear before you and 
provide an overview on the current state of the Marine Corps Reserve.
    The United States Marine Corps is the Nation's force-in-readiness--
ready to go now, to respond and compete, and if necessary, ready to 
fight and win. When our Nation calls, the American people expect quick, 
decisive action from Marines--both the Active and Reserve Components. 
As part of a Total Force, the Marine Corps Reserve stands ready to 
augment, reinforce and sustain the Active Component by providing forces 
for employment across the full spectrum of crisis and global 
engagement.
    Your Marine Corps Reserve has been engaged around the world in 
theater security cooperation activities and operations, serving side-
by-side with our Active Component. Organized as a traditional Marine 
Air-Ground Task Force, Marine Reservists from each of our major 
subordinate commands--4th Marine Division, 4th Marine Aircraft Wing, 
4th Marine Logistics Group, and Force Headquarters Group--have made a 
tremendous impact across a diverse spectrum of operations in support of 
every geographic combatant commander.
    I am deeply impressed by the professionalism, competence, and 
dedication of our Reserve Marines. Like their Active Component 
counterparts, they serve selflessly to protect our great Nation. I am 
inspired by the way they balance family responsibilities, civilian 
careers, and military service. They do so with humility, without 
fanfare, and with a sense of pride and dedication that is consistent 
with the great sacrifices of Marines from every generation. Without a 
doubt, the success of the Marine Corps hinges on the quality of our 
Marines.
    My focus remains on maintaining the ability to provide manned, 
trained, equipped, and well-led forces capable of supporting the Active 
Component. With your continued support, we will strengthen and maintain 
our readiness to be positioned to fight, compete, and win.
A Total Force
    As an integral part of the Total Force, the Marine Corps Reserve 
plays a key role in providing that national security force in 
readiness. The Marine Corps Reserve provides critical capabilities to 
the Total Force which increases the lethality of the Corps and 
contributes to the competitive advantage with potential adversaries. 
Over the past year, the Marine Corps Reserve supported combatant 
commanders by providing forces focused on combat operations, crisis 
prevention, crisis response, and theater security cooperation. Global 
deployments, along with participation in Service, Joint, and multi-
national exercises, develop the depth of experience of the Reserve 
Force, ensuring the Marine Corps Reserve is relevant, ready, and 
responsive to meet combatant commanders' requirements for highly 
trained forces.
    In 2018, 2,135 Reserve Marines mobilized supporting 35 operational 
requirements in each of the 6 geographic combatant commands. Likewise, 
nearly 14,000 Reservists participated in 76 training exercises, 
supporting requirements in 41 countries across the globe. Additionally, 
754 Reserve Marines volunteered to serve as individual augmentees, 
providing support to combatant commanders and Service staffs. Marine 
Forces Reserve filled 63 percent of the total service individual 
augment requirements. The demand for Marine Forces Reserve to meet 
requirements as an operational reserve increased by 263 percent since 
2017, which was the third consecutive year of increased operational 
requirements. We have continued to meet the high demand for use as an 
operational reserve, though this has begun to challenge readiness to 
meet strategic requirements. For historical perspective, the Marine 
Corps deployed 8 reserve formations in 2001, compared to 35 reserve 
formations in 2018.
    In 2019, Marine Forces Reserve will continue to support the 
combatant commanders by mobilizing in excess of 2,540 Reservists 
supporting approximately 43 formations. Over the course of 2019, nearly 
12,000 Marines will support theater-specific exercises and security 
cooperation events across every combatant command. These operations and 
exercises greatly increase the Reserve Component's interoperability 
with the Active Component, Joint Forces, and our allies.
    The demand for the Marine Corps' unique capabilities has increased, 
requiring more Reserve Component activations of units and task 
organized formations to produce enabling capabilities across the range 
of military operations. For example, Marine Forces Reserve has 
increased the participation of Marines filling the security force and 
advisory requirements to Task Force South West in Helmand, Afghanistan. 
These teams include Reserve members operating in the High Mobility 
Artillery Rocket System (HIMARS) battery, the Train Advise and Assist 
teams, and the security forces company which continues to provide local 
security to all United States forces. In addition, for the fourth year 
in a row, we have mobilized and will deploy a Special Purpose Marine 
Air-Ground Task Force to U.S. Southern Command in support of theater 
security cooperation objectives. For the first time in nearly 10 years, 
we mobilized and deployed a reserve infantry battalion--2d Bn, 23d 
Marines--to Okinawa, in support of a combatant commander's 
requirements. The last Marine Reserve infantry battalion to be 
mobilized and deployed in support of combatant commander requirements 
was in 2009. In 2019, we will continue the trend of battalion-level 
mobilizations by deploying 1st Battalion, 25th Marine Regiment to 
Okinawa, Japan, also in support of the unit deployment program to the 
Indo-Pacific Area of Responsibility. Reconnaissance, assault amphibian 
and combat engineer units have also deployed to the Indo- Pacific Area 
of Responsibility in support of III Marine Expeditionary Force's 
requirements in Okinawa, Japan. United States Central Command (CENTCOM) 
continues to be the recipient of the highest number of Marine Corps 
Reserve units and individuals. Of the 35 formations activated in 2018, 
17 deployed to the CENTCOM AOR. This trend will continue in 2019 as 20 
of the 43 Reserve formations we activate will deploy to the CENTCOM 
AOR.
    Marine Forces Reserve (MARFORRES) continues to provide daily 
support to combatant commanders in a wide range of roles that include 
multi-national exercises, such as Dynamic Front 19 in Latvia, Arctic 
Challenge 19 in Finland, New Horizons 19 in South America, and Maple 
Resolve 19 in Canada. I anticipate Marine Forces Reserve will continue 
to deploy and to integrate with the Active Component in support of 
high-priority combatant commander requirements for the foreseeable 
future.
    In addition to participating in operational requirements across the 
globe, Marine Forces Reserve supports the Total Force by dutifully 
executing the sensitive and crucial mission of providing casualty 
assistance to the families of our fallen Marines. There is no 
responsibility that we treat with higher regard than the solemn mission 
of providing casualty assistance. Inspector- Instructor and Reserve 
Site Support Staffs are geographically positioned to accomplish the 
vast majority of Marine Corps casualty assistance calls and are trained 
to provide compassionate and thorough assistance to families. Indeed, 
the majority of Marine Corps casualty notifications and follow-on 
assistance calls to the next of kin are made by our Marines. During 
Calendar Year (CY) 2018, our Inspector-Instructor and Reserve Site 
Support staffs performed 95 percent of the casualty calls performed by 
the Marine Corps.
    The professionalism and compassion of our Casualty Assistance Calls 
Officers (CACOs) continues well beyond the initial notification. We 
ensure that our CACOs are well trained, equipped, and supported by all 
levels of command through the combination of in-person and online 
training. Once assigned, the CACO serves as the family's central point 
of contact and coordinates with funeral homes, government agencies, and 
other organizations. They assist family members with planning the 
return and final resting place of their Marine; and ensure the filing 
of appropriate documents so families receive all benefits they are 
entitled. In many cases, our CACOs provide a long-lasting bridge 
between the Marine Corps and the grieving family.
    Additionally, Marine Forces Reserve units and personnel provide 
significant support in the form of military funeral honors for our 
veterans. MARFORRES performed 20,400 military funeral honors which 
represented 93 percent of all funeral honors rendered by the Marine 
Corps during 2018. As with casualty assistance, we place enormous 
emphasis on providing timely, compassionate, and professionally 
executed military funeral honors. Although this comes with a cost to 
readiness, as some Marine Reserve units are executing in excess of 500 
funerals per year, which impacts their ability to maintain or increase 
readiness.
    Finally, Marine Forces Reserve functions as the most wide reaching 
link between the Marine Corps and communities across the Nation. We are 
the face of the Marine Corps to the majority of the American public. 
With Reserve units located across the country, Marine Forces Reserve is 
uniquely positioned to interact with the American public and 
communicate the Marine Corps story to our fellow citizens; most of whom 
have little or no contact with the Marine Corps. Last year, Marine 
Forces Reserve personnel and units conducted more than 500 local and 
regional public engagement and community relations events across the 
country.
Predictability
    The Marine Forces Reserve Force Generation Model provides a level 
of predictability for force planners and our Reserve Marines, while 
maintaining the ``train as we fight'' philosophy. The Model provides 
our Reservists, their families, and their employers the ability to plan 
for upcoming duty requirements 5 years and beyond. This predictability 
also empowers service members to achieve the critical balance between 
family, civilian careers, and service to our Nation while enabling 
informed employers to plan for and manage the temporary absence of 
valued employees.
    We ensure units and personnel are ready to meet any challenge by 
employing a Force Generation Model that rotates Marine Reserve units 
through a 5-year Training and Readiness Plan. The Force Generation 
Model enables Marine Forces Reserve to effectively support Global Force 
Management requirements while maintaining combat ready units and 
detachments based on priorities established by the Commandant's Force 
Management Plan. While restraining the number of available units to no 
more than twenty percent for sourcing global force management 
rotational requirements, the Model enables Marine Forces Reserve to 
preserve the bulk of its force for major contingency operations.
    The key element in the Force Generation Model is the deliberate 
application of scarce training resources, the most significant being 
Annual Training periods, to progressively build combat credible forces 
over a 4-year period. Employment of reserve units, detachments, and 
individuals into Service, Joint and multi-national exercises provides 
opportunities to train to higher level Mission Essential Tasks, thereby 
advancing capability over a 5-year cycle. Generally, units are assessed 
through a culminating Integrated Training Exercise (ITX) during the 
fourth year of the training cycle for a potential mobilization in the 
fifth year. Additionally, the Reserve Component trains with the Active 
Component in exercises in the United States and abroad which supports 
enhancing interoperability.
Personnel
    Marines, Sailors and our civilian Marines are the foundation of all 
that we do. The resources we dedicate to sustaining and developing this 
foundation directly contributes to the success of our institution. The 
vast majority of the Marine Corps Selected Reserve's authorized end 
strength of 38,500 falls under Marine Forces Reserve. The Selected 
Reserve is composed of Marines in four categories: Selected Marine 
Corps Reserve Units, Active Reserve, Individual Mobilization 
Augmentees, and service members in initial training. Embedded with 
these Marines are 1,641 Active and Reserve component Sailors who serve 
critical roles in the operational, medical, dental, and spiritual 
readiness of our Reserve Force. The success of Marine Forces Reserve 
would not be possible without continued support from the U.S. Navy.
    In addition to the Marines and Sailors of the Selected Reserve, 
Marine Forces Reserve administratively controls approximately 61,000 
Marines who serve in the Individual Ready Reserve (IRR). Marine Forces 
Reserve continues to monitor the mobilization viability of these IRR 
Marines through the use of muster events at multiple locations across 
the country. These muster events allow Marine Forces Reserve to ensure 
these IRR Marines meet the requirements for mobilization. These events 
also provide the opportunity to address administrative issues, conduct 
mental health and post-deployment assessments, to review Reserve 
obligations and new opportunities, and to meet with Marine Corps 
recruiters. During the past year Marine Forces Reserve conducted 31 
muster events and met 5,189 IRR Marines. In addition to the musters, 
Marines Forces Reserve contacted and screened 52,000 Marines 
telephonically.
    The Marine Corps Reserve strives to retain the very best Marines 
capable of fulfilling our leadership and operational needs. Marines 
approaching the end of their current contracts, whether Active or 
Reserve Component, receive counseling on the tangible and intangible 
benefits of remaining associated with the Selected Reserve. We educate 
each transitioning Active Component Marine on opportunities for 
continued service in the Marine Corps Reserve through the Marine Corps' 
transition assistance and educational outreach programs.
    Recruiting and retaining high quality Marines remains essential to 
the Marine Corps' role as the Nation's Force in Readiness. Marine 
Forces Reserve enjoys high affiliation and retention rates enhanced 
through incentive programs, such as occupational specialty retraining, 
inactive duty travel reimbursement, and bonus payments. Your support of 
these incentive programs enabled us to maintain our end strength at 99 
percent of total authorization, and our Military Occupational Specialty 
match rate at over 85 percent.
Equipment
    Reserve Component units remain highly interoperable with their 
Active Component counterparts due to the Marine Corps' Total Force 
approach to equipment fielding and management. Reserve Component Forces 
are manned, trained, and equipped to standards that facilitate the 
seamless integrated employment of forces to meet combatant commander 
requirements. Our reserve units and personnel continue to be in high 
demand, with approximately 100 exercises, missions, and operations 
currently scheduled this fiscal year, to include mobilization of 
battalion and squadron-sized units. This high operational tempo places 
a stress on our ability to maintain our equipment and replenish our 
deficiencies. Most disconcerting is our individual combat equipment 
deficiencies, which in the event of a large-scale wartime mobilization 
may become a strategic risk to mission.
    Currently, our organizational combat equipment levels are 
sufficient to meet home station training requirements and our 
operational pace with augmentation from Marine Corps Logistics Command. 
With regard to maintenance readiness, Marine Forces Reserve has 
mitigated risk for many years in two ways. First, risk is mitigated by 
refining units' Training Allowances, which is that portion of a unit's 
full Table of Equipment located at Reserve Training Centers. Our goal 
is to balance the amount of equipment necessary to conduct training 
with the amount of equipment that can be maintain given personnel and 
fiscal constraints. Second, risk is mitigated by leveraging Overseas 
Contingency Operations (OCO) dollars to buy mobile maintenance support 
teams that augment the limited organic maintenance capacity. 
Congressional support for the Marine Corps Reserve fiscal year 2020 
President's budget request within the National Defense Authorization 
Act, to include OCO, is paramount to our continued success in 
sustaining our equipment and maintenance readiness.
    Equipment modernization and improved readiness are the key factors 
which allows the Marine Corps to keep pace with future threats and 
preserve operational agility. Upcoming fielding of the Joint Light 
Tactical Vehicle (JLTV) and Amphibious Combat Vehicle (ACV) will 
provide the Reserve Component with the latest generation of combat 
equipment. Additionally, fielding of programs such as the Ground/Air 
Task Oriented Radar (G/ATOR) and the Ground Weapons Locating Radar 
(GWLR) will enhance our ability to fight and win on the modern 
battlefield. The top procurement priority of the Marine Corps Reserve 
is the KC-130J Super Hercules. The Marine Corps Reserve has been 
fielded 7 of 28 aircraft and will not be fully fielded until 2025. This 
extended fielding timeline forces the Reserve Component to 
simultaneously operate the KC-130J and the legacy KC-130T aircraft. 
These two aircraft have vastly different logistics, maintenance, and 
aircrew requirements, resulting in an increased outlay of resources to 
maintain the readiness of the Reserve Component KC-130 Squadrons.
Training
    Each year and typically in the summer, Marine Forces Reserve 
participates in a number of training exercises both within the United 
States and overseas to improve combat readiness and enhance our ability 
rapidly activate and integrate with the Active Component. The service-
level Integrated Training Exercise (ITX) is conducted aboard Marine 
Corps Air-Ground Combat Center, Twentynine Palms, California. ITX 
improves combat readiness, efficiency in Total Force integration, and 
enables more rapid activation response times at the battalion and 
squadron level. The exercise consists of two infantry battalions 
conducting live-fire and maneuver exercises, along with other elements 
of the Marine Air-Ground Task Force. This is one of the few 
opportunities that Reserve ground, aviation, and logistics combat 
elements, under the command of a regimental headquarters, are able to 
come together and coordinate all warfighting actions to operate as a 
Marine Air-Ground Task Force under live fire and maneuver conditions. 
Additionally in 2018, Reserve Marines and Sailors participated in 
Exercise Northern Strike at the Joint Maneuver Training Center aboard 
Camp Grayling, Michigan. Exercise Northern Strike provided an 
opportunity for Reserve Marines to train alongside Army and Michigan 
Air National Guard forces, as well as Canadian forces in a joint, 
combined-arms, live-fire exercise emphasizing close air support, joint 
fire support, and coordinated maneuver with fires.
    To preserve fiscal and materiel resources, Marine Forces Reserve 
uses training simulators wherever and whenever possible. Reserve units 
employ Indoor Simulated Marksmanship Trainers (ISMTs) to maintain 
combat marksmanship skills and to maximize the use of their most 
precious resource, time. The ISMTs enable onsite training and eliminate 
long distance travel to remote DoD areas. Additionally, units 
capitalize on non-traditional training methods such as online training 
to mitigate the limitation of 38 training days per fiscal year to 
complete mission essential tasks and all required DoD and Service 
annual training requirements. Expanding the use of simulators and 
online training enhances readiness and enables the Reserve Component to 
maximize limited training time during drill weekends.
Facilities
    Marine Forces Reserve occupies facilities in 47 States, the 
District of Columbia, and the Commonwealth of Puerto Rico. These 
facilities include 27 owned and 133 tenant Reserve Training Centers, 
three family housing sites, one permanent barracks, two emergency troop 
housing barracks and one General Officer Quarters. Although some sites 
are located on major DoD installations, most are situated within 
civilian communities, ranging from neighborhoods to industrial and 
commercial districts. We continue to improve the maintenance and 
security of our facilities to ensure the safety of our Marines and 
Sailors and to provide an effective training and mobilization location.
    Fifty-seven percent of the facilities budget supports the 
sustainment and maintenance of existing infrastructure and day-to-day 
operating costs. We have improved the overall readiness of our 
facilities inventory through the Facilities Sustainment, Restoration 
and Modernization (FSRM) support program and maximized the impact of 
our budget through divestiture and demolition of excess footprint.
    The Marine Corps' Military Construction, Naval Reserve (MCNR) 
program focuses on providing construction for new and enduring 
capabilities, as well as recapitalization of our aging facilities. The 
construction provided by the annual authorization and appropriation of 
MCNR funding is an important factor in advancing our facilities support 
mission as we optimize our force laydown throughout the Nation. 
Continued support for our MCNR request is essential as we divest of 
failing infrastructure and modernize capabilities.
    Of most critical importance is the safety of our Marines and 
Sailors. We have ongoing efforts to improve overall force protection at 
all of our sites by working with our service partners and the National 
Guard for joint occupied facilities. Numerous protection assessments 
and security engineering reports have been conducted at our facilities 
to assist and develop designs to mitigate protection concerns, 
specifically physical security. These assessments identify physical 
security requirements and serve to prioritize security enhancements to 
ensure our Marines and Sailors are secure in the facilities where they 
work and drill.
    The combined effects of our targeted consolidation, FSRM, and MCNR 
programs have steadily reduced the number of inadequate or substandard 
Reserve Training Centers and enabled better support to the Force. As 
our infrastructure ages, however, our operating costs are steadily 
increasing. In addition, service level efforts to modernize our force 
and its infrastructure by 2025 also increase costs. Continued support 
to our annual funding request for our facilities program will enable us 
to improve the overall physical infrastructure that reinforces the 
operational readiness of our units.
Health Services
    Marine Forces Reserve Health and Human Service' (HSS') ensures the 
health and wellness of the Reserve Marines and Sailors remains at the 
forefront. We continue to improve medical readiness through a robust 
Post-Deployment Health Reassessment (PDHRA) Program within Marine 
Forces Reserve and an accurate monitoring, identification, and 
notification of the unit- level actions necessary to attain readiness 
goals. Additionally, our Health Services personnel participate in Force 
Readiness Assistance & Assessment Program (FRAAP) inspections and 
audits which provide oversight at unit level and the ability to monitor 
policy adherence and readiness.
    The Reserve Health Readiness Program (RHRP) greatly increased 
overall medical and dental readiness throughout the Force. This program 
funds for and dispatches contracted civilian medical and dental 
providers to units that do not have medical or dental support personnel 
or are not supported by a military treatment facility. During fiscal 
year 2018, the RHRP performed 18,481 Periodic Health Assessments, 
14,255 Mental Health Assessments, 576 PDHRAs, 55 PreDHAs, 3,966 
laboratory services, 12,539 audio services, and 11,967 dental 
procedures.
    Between deployments, our Health Services priority is to work toward 
achieving the DoD's goal of a 90 percent medically ready force. During 
fiscal year 2018, our individual medical and dental readiness rates 
were 78.7 percent and 85.9 percent, respectively. Marine Force Reserve 
units rely heavily on RHRP to maintain our medical and dental 
readiness. Continued support of this program is imperative for 
maintaining readiness.
Behavioral Health
    In addition to RHRP, Marine Forces Reserve executes a robust 
behavioral health program, which includes Combat Operational Stress 
Control, Suicide Prevention, Substance Abuse Prevention and Family 
Advocacy programs. Operational Stress Control and Readiness (OSCAR) 
training is conducted at all levels. It is provided during pre-
deployment training to service members deploying for more than 90 days, 
as well as all commands in garrison. The purpose of this training is to 
provide the requisite knowledge, skills, and tools to assist commanders 
in preventing, identifying, and managing combat and operational stress 
concerns as early as possible.
    The Navy Bureau of Medicine and Surgery (BUMED) continues to 
support behavioral health through various independent contracted 
programs, such as the PDHRA and the Psychological Health Outreach 
Program (PHOP). The PDHRA places an emphasis on identifying physical, 
behavioral, and mental health concerns that may have emerged since 
returning from deployment. During CY 2018, Marine Forces Reserve 
successfully raised current completion totals to nearly 40,870 PDHRA 
screenings. The PHOP addresses both post-deployment behavioral health 
concerns and crisis-related interventions by providing our Marines and 
Sailors access to local resources through a network of contracted 
behavioral health. These programs are critical to maintain a resilient 
force by providing a pathway for Marines, Sailors, and families to seek 
behavioral health assistance.
    Signs of operational and combat stress may sometimes manifest long 
after a service member returns home from deployment. This delayed onset 
of symptoms presents particular challenges to Reserve Marines who may 
be isolated from vital medical care and the daily support network 
inherent in active duty Marine Corps units. Encouraging Marines to 
acknowledge and vocalize mental health issues is a ubiquitous challenge 
facing our commanders. We address the stigma associated with mental 
healthcare through key programs, such as the Yellow Ribbon 
Reintegration Program (YRRP). Further, we market all of our behavioral 
health initiatives and programs through our Marine Forces Reserve 
portal website and during key Marine Corps forums throughout the year. 
Your continued support of our behavioral health programs is greatly 
appreciated.
    Marine Forces Reserve Drug Demand Reduction Program (DDRP) 
continues to focus on reducing illegal drug use and prescription drug 
misuse within the Reserve community. Marine Forces Reserve relies 
profoundly on its drug-testing program, which acts as a powerful 
deterrent against drug use. Each Reserve unit conducts monthly drug 
testing to screen our Reserve Marines for drugs. The DDRP staff 
provides quarterly and on demand education and awareness training on 
the dangers of misusing and abusing prescription drugs as well as 
information on the proper disposal of old, unused, and outdated 
medications. Additionally, the DDRP increases leaders' awareness on the 
dangers of abusing prescription drugs through annual substance abuse 
supervisory level training.
    Suicide prevention continues to be a high priority for the Marine 
Corps. Marine Forces Reserve centers its suicide prevention efforts on 
six initiatives: in-theater assessments, PDHRA, PHOP, Care Management 
Teams, Marine Intercept Program (MIP), and Unit Marine Awareness and 
Prevention Integration Training (UMAPIT). The in-theater assessments 
target Reserve Marines who may be exhibiting or struggling with 
clinically-significant behavioral issues during a deployment. These 
Marines are evaluated by appropriate medical authorities for possible 
treatment with follow-up assistance made prior to returning home. The 
PDHRA program specifically focuses on identifying issues that emerge 
after our Marines and Sailors have returned home from deployment. The 
PHOP secures behavioral health screenings, psychological treatment 
referrals and provides essential follow-up treatment to ensure our 
service members' behavioral health needs are met.
    Similarly, Care Management Teams focus on support through the VA's 
Transition Care Management Program. Our Marines are assigned a Care 
Manager who oversees the referrals and follow-on care of the Reserve 
Marine's individual healthcare needs. MIP is an evidence-informed 
targeted intervention for service members who have had an identified 
suicide ideation or suicide attempt. MIP includes a series of 
telephonic voluntary caring contacts in which a counselor reaches out 
to the Marine and assesses them for risk, encourages the use of a 
safety plan, and identifies and addresses any barriers to services. The 
MIP counselors then incorporate these caring contacts into the 
counseling process. These services are also provided to our Reserve 
Marines through the PHOP.
    Additionally, our Marines, Sailors and family members are able to 
access behavioral health programs at Marine Corps installations through 
Marine Corps Community Services (MCCS) while on active-duty orders. 
Regardless of duty status, Military OneSource provides counseling, 
resources, and support to service members and their families anywhere 
in the world. The Marine Corps DSTRESS Line is another resource 
available to all Reserve Marines, and family members regardless of duty 
status. DSTRESS is a 24/7/365, Marine-specific anonymous crisis call 
and support center that provides phone, chat, and video-
teleconferencing for non-medical, short-term, solution-focused 
counseling.
Sexual Assault Prevention & Response
    Sexual assault remains a complex and challenging matter that is 
often interrelated with other readiness challenges, behavioral health 
issues, and destructive behaviors. For Marine Forces Reserve, 
addressing the continuum of destructive behaviors and identifying the 
most effective prevention techniques are top priorities with the goal 
of eliminating sexual assault within our ranks. To accomplish this 
goal, we execute a Sexual Assault Prevention and Response Program 
(SAPR) with seven full-time employees who provide supportive services 
across our geographically-dispersed force. In addition to the Force-
level Sexual Assault Response Coordinator (SARC), each Major 
Subordinate Command within Marine Forces Reserve has a SARC who manages 
their Commanding General's SAPR Program from the our headquarters in 
New Orleans. Together with the SARCs, two professional civilian victim 
advocates provide support to our Marines, Sailors and families Marine 
Forces Reserve continues to work diligently to improve our victim 
response, outreach, and prevention.
    Our SAPR staff trains up to 160 uniformed Victim Advocates (VAs) 
each year at our headquarters in New Orleans. After completing our 40-
hour training course, these potential VAs submit an application for 
credentialing through the DoD's Sexual Assault Advocate Certification 
Program. Once credentialed, the advocates are officially appointed by 
their commanders to serve at their respective Reserve Training Centers. 
In total, Marine Forces Reserve maintains an active roster of more than 
250 SAPR VAs across the country.
    Our SAPR personnel respond to Marines, Sailors and dependents who 
require SAPR services. Our SARCs and SAPR VAs screen for potential 
safety issues and develop individualized safety plans as needed. They 
offer advocacy services and referrals, and maintain a data base of 
nationwide resources for victims of sexual assault who may not reside 
on or near a military installation. Furthermore, our Marines and 
Sailors have access to a Victim's Legal Counsel who protect their 
rights following a report of sexual assault.
    Marine Forces Reserve maintains a SAPR Support Line that is manned 
by the professional SAPR staff. Marine Forces Reserve also actively 
publicizes the DoD Safe Helpline which offers crisis support services 
for members of the DoD community. The DoD Safe Helpline is available 
24/7 worldwide with ``click.call.text'' user options and can be used 
anonymously for confidential support.
    Our prevention strategy is holistic and integrated with other 
programs that support the eradication effort, such as the Equal 
Opportunity Program, Deployment Resiliency, Safety, Spiritual Readiness 
Initiatives, and Behavioral Health. Marine Forces Reserve continues to 
set the example of discipline and respect by supporting a zero-
tolerance policy related to assault, and a retaliation-free command 
climate. Leaders at every level are encouraged to actively engage with 
our Marines and Sailors to learn what can be done to further support a 
positive environment that is free from attitudes and behaviors that are 
incompatible with our core values. All Marines and Sailors receive SAPR 
training every year to ensure widespread knowledge about our program to 
include prevention and response
Quality of Life
    Marine Forces Reserve remains committed to ensuring an appropriate 
balance and effective performance of our quality of life programs, 
which are designed to help all Marines, Sailors and their families, 
whether they are deployed or on the home front. Our force is dispersed 
throughout the country and away from traditional brick and mortar 
support resources available at our major bases and stations. Therefore, 
we strive to provide awareness of, and access to, the numerous support 
programs available away from major bases and stations. To meet the 
challenge of deployments, and to maintain readiness, we continue to 
promote family support through our Deployment Readiness Coordinators. 
This program is staffed by either civilians or active duty Marines all 
the way down to the detachment level. Marine Corps Community Services 
and our Deployment Readiness Coordinators provide a vital link to 
ensure support reaches those who need it.
    Marine Forces Reserve tracks the submission of medical service 
treatment records to ensure Reserve Component Marines receive timely 
access to Department of Veterans' Affairs (VA) healthcare services. 
Working across all 160 sites, we aggressively target our performance 
for submission timeliness to ensure our Marines are able to submit 
timely VA disability benefit claims.
    Marine and Family Readiness Programs remain flexible, constantly 
adjusting to meet the needs of our Marines and their families. A 
resilient force is primarily achieved by providing robust, relevant, 
and standardized training to our commanders, Family Readiness Command 
Teams, Marines and their families. Our Marine Corps Family Team 
Building (MCFTB) program offers non-clinical primary and secondary 
preventative education and professional training to support service 
members and their families throughout mission, life, and career 
events--ultimately enhancing readiness. MCFTB training events are 
delivered both, in person and through interactive webinars, at our 160 
sites. During fiscal year 2018, Marine Forces Reserve conducted 113 
training events at which 8,691 Marines and family members received 
valuable information to prepare for and thrive during deployments, and 
to achieve a positive post-deployment reintegration experience.
    A key component to our quality of life and resiliency is the 
religious ministry support provided by 222 Religious Ministry Team 
(RMT) members. As Uniformed Members, RMTs support Marines and their 
families across the full spectrum of military life including combat and 
humanitarian engagements. 125 RMT personnel are embedded in 46 Marine 
Corps Reserve units and 97 are integrated in Navy Reserve religious 
support units that directly support Active Component Marine Corps 
units. This support includes developing the Commandant's spiritual 
readiness initiatives, providing divine services across the spectrum of 
faith communities, advising on spiritual and ethical matters, and 
delivering pastoral care in a safe, confidential environment. One 
signature program is the Chaplain Religious Enrichment Development 
Operations (CREDO) program. The CREDO program provides two 
transformational workshops: the Marriage Enrichment Retreat and the 
Personal Resiliency Retreat (PRR). These events equip Marines, Sailors, 
and their families with practical relationship and communication tools 
that strengthen marriages and individual resilience while on the home 
front and during deployments. The PRR curriculum also helps Marines and 
Sailors set personal goals, make good decisions, deal with stress, and 
live lives with greater purpose and satisfaction. During fiscal year 
2018, fifteen Marriage Enrichment and Personal Resiliency Retreats were 
conducted with 624 participants.
    The Marine Corps emphasizes the importance of readiness for Marines 
and family members in many areas of life. Personal and Professional 
Development programs continue to provide training and educational 
resources to our Marines, Sailors and their families in a variety of 
areas. One key program that assists commands, Marines, and family 
members with readiness is the Command Financial Specialist Program 
(CFS). The CFS provides assistance on a wide array of financial issues 
to include budgeting, savings, investing, insurance, Survivor Benefit 
Program (SBP), VA benefits, retirement and financial counseling to all 
members of our dispersed forces.
    Our Transition Readiness Program emphasizes a proactive approach 
that enables Marines to formulate effective post-transition 
entrepreneurship, employment, and educational goals. The Marine For 
Life Network links our Marines to employment, education, and community 
resources to support their overall life goals. Tutor.com offers 
Marines, Sailors and their children access to 24/7 no-cost, live 
tutoring services for K-12 students, college students and adult 
learners. Our Marines are provided with remote access to language 
courses through Mango Languages. This program supports over 70 
languages to include English as a Secondary Language (ESL). Peterson's 
Online Academic Skills Course helps build math and verbal skills to 
excel on the job, pass an exam, to advance in a career or continued 
education.
    Our Semper Fit program continues to be fully engaged in partnering 
with our bases and stations to provide quality, results-based education 
and conditioning protocols for our Marines and Sailors. The High 
Intensity Tactical Training program provides hands-on, science-based 
strength and conditioning courses and online physical fitness tools to 
include instruction on injury prevention, nutrition, and weight 
management. Our Marines' and Sailors' quality of life is also enhanced 
through team building, and esprit de corps activities, such as unit 
outings and participation in competitive events. These programs are 
crucial to unit cohesion and camaraderie.
    The Yellow Ribbon Reintegration Program is an invaluable part of 
our resiliency efforts. Since its inception in 2010, we have held more 
than 900 training events for more than 40,000 Marines, Sailors, and 
family members. In fiscal year 2018, we conducted 51 events with 1,875 
participants.
    Our Marines, Sailors, and their families, who sacrifice so much for 
our Nation's defense, should not be asked to sacrifice quality of life. 
We remain a staunch advocate for flexible Family Programs and Services 
that evolve and adapt to the changing needs of our Marines, Sailors and 
their families. The combined effect of these programs and services are 
critical to the readiness and retention of our Marines, Sailors, and 
their families, and your continued support is greatly appreciated.
Supporting our Wounded, Ill, or Injured Marines and their Families
    The Marine Corps ensures the availability of full spectrum care to 
all wounded, ill, or injured (WII) service members, whether they are 
Active or Reserve, through the Wounded Warrior Regiment (WWR). Marine 
Forces Reserve ensures Reserve Marines' unique challenges are addressed 
through a WWR Liaison Officer who provides subject matter expertise and 
special coordination with the WWR staff.
    The WWR staff includes the Reserve Medical Entitlements 
Determinations Section, which maintains specific oversight of all 
Reservists requiring medical care for service-incurred and duty- 
limiting medical conditions. Reservists facing complex care and 
recovery needs have access to WWR's network of 45 Recovery Care 
Coordinators who provide one-on-one transition support and resource 
identification for WII Reservists and families often living long 
distances from military installations. WWR also has medical advocates 
at the regimental staff who are available to assist Reservists in need 
of medical care coordination and advocacy. District Injured Support 
Coordinators dispersed throughout the country also coordinate with 
Reserve units to ensure we keep faith with all Marines.
    Marine Forces Reserve will not forget the sacrifices our Marines 
have made for this great Nation; and we will continue to work with the 
WWR to establish resources and programs that address the unique and 
ongoing needs of our Reserve population.
Conclusion
    The Marine Corps Reserves is manned, trained and equipped to 
provide individual Marines and units to the Active Component as part of 
the Total Force. We are forward deployed supporting Combatant 
Commanders' requirements, participating in multiple exercises at our 
training centers and around the world, and often the face of the Marine 
Corps to our local communities. Along with our Active Component, we are 
focused on modernization, readiness and manpower to maintain and 
enhance our ability to increase the lethality and capacity of the 
service to be the Nation's force-in-readiness. With your continued 
support, we will remain ready to augment, reinforce and sustain the 
Active Component. Semper Fidelis!

    Senator Shelby. Thank you.
    At the start of the current fiscal year, 2,125 National 
Guardsmen were deployed to our Nation's southwest border. 
Recent projections anticipate 1,807 will remain for the rest of 
the fiscal year.
    General Lengyel, can you give the subcommittee an update 
here today on the current deployment?
    General Lengyel. Yes, Chairman. We have been deployed. The 
National Guard has been deployed on the border since a year 
ago, since April 6th.
    As of this morning, we have 2,079 National Guard soldiers 
and airmen that are deployed still in all four border States, 
predominantly in Texas and Arizona that have the preponderance 
of those forces.
    They are doing this in a volunteer status under the command 
and control of the governors in their States. So there are 
guardsmen on the border.
    It is anticipated that the Department of Defense assigned 
to the National Guard the responsibility to supply up to a 
total of 4,000--is what we were authorized to put on the 
southwest border--and fund, using our training dollars to fund 
them, while they are there.
    It is anticipated that the current level of 2,000 who are 
there about right now should be sustained for about the rest of 
the year.
    Senator Shelby. Is that enough?
    General Lengyel. It is. Well, if you are down there for the 
Department of Homeland Security, they would like more, 
actually, but I would tell you that they are very valued to the 
Customs and Border Protection and to DHS (Department of 
Homeland Security) in performing their border security 
missions.
    Senator Shelby. General, deployments for the guard forces 
to the southwest border exists as unfunded, unfunded 
requirements in our cycle, fiscal cycle, because those 
deployments follow Requests for Assistance, RFA, initiated by 
the Department of Homeland Security, as you know.
    The current RFA, Request for Assistance, extends through 
September, and some estimates predict a $247 million shortage 
of funding for pay and operations, a quarter of a billion 
dollars.
    Could you describe how you plan to mitigate the current 
shortfall and what planning has gone into the deployments to 
the border during 2020? Can you tell us how the Department 
might better account for cost through the normal budget 
process?
    General Lengyel. Yes, Mr. Chairman. And your numbers are 
accurate. I mean, it is projected that approximately $247 
million is what we project, the total cost of the National 
Guard deployment to the southwest border will in fact be.
    And I would tell you that if through the course of the 
year, there is an expectation by the National Guard that funds 
will be reprogrammed from some other source within the 
Department to cover those training costs. We are using our 
training dollars to do this.
    As a round number, it costs the National Guard about $100 
million to do one drill weekend for the Army National Guard. 
So, at the end of the year, we will need a reprogramming of 
about $193 million to not impact the normal training schedules 
that the National Guard is expected to do to be a ready part of 
the Army and part of the Air Force.
    Senator Shelby. Okay.
    General Luckey, I will direct this question to you. In 
order to identify funds for the modernization priorities 
managed by the Army Futures Command, the Army recently 
realigned $33 billion through the truncation or elimination of 
186 programs, many of which provide logistical capabilities.
    What is your level of integration with the Army Futures 
Command at this point, and what was your involvement in the 
process that produced the reductions?
    General Luckey. Chairman, let me take the second question 
first, if I may.
    Senator Shelby. Okay.
    General Luckey. My involvement was persistent and constant, 
and candidly, I was a full partner and had many opportunities 
to discuss with senior leadership all aspects of that process 
that you just alluded to.
    As it pertains specifically to our relationship with the 
Army from the logistics perspective, as you well know, 
Chairman, we are fully integrated with the Army as an enabling 
capability from the very first days of any sort of mobilization 
for major contingency operations.
    I will tell you that inside the Army Reserve, I will not 
say we have led this effort, but we have anticipated now for 
some time that this is going to require a prioritization of 
where do we modernize first, what formations need to be trained 
to a slightly higher state of readiness so they are able to 
execute their tasks on time, as I alluded to in my opening 
statement.
    And I will tell you that as part of our RFX, our Ready 
Force X construct, we have already designated a significant 
portion of our force to be able to deploy, as I said earlier, 
in weeks' or months' notice. The aspects of that capability and 
that readiness impact both how we look at how we man our 
forces, where we prioritize our full-time support resources to 
sustain a higher level of readiness to those capabilities, and 
where we prioritize modernizing an increasing sustainment of 
certain systems to support those forces.
    I am confident sitting here before this committee today in 
telling you that based on the work that has been done so far 
and frankly based on some of the prioritization efforts we have 
made inside the Army Reserve, I am confident that we can 
continue to meet the requirements necessary to provide those 
capabilities to the warfighter.
    As I have said to several members of this committee in 
other venues, fundamentally the challenge we have is time and 
making sure that we have adequate notice to prepare those 
forces fully for large-scale combat operations.
    Senator Shelby. Thank you.
    General Luckey. Yes, sir.
    Senator Shelby. I will direct this question to you, 
Admiral.
    Following multiple accidents involving ships at sea in 
2017, the Navy produced several reports to ensure that we are 
learning from our mistakes and, more importantly, working to 
prevent future tragedies like these.

                    READINESS REVIEW RECOMMENDATION

    It is my understanding that these reports, which include 
the Fleet Forces Command Comprehensive Review and Strategic 
Readiness Review, resulted in 117 firm recommendations--that is 
a lot of recommendations--for reform. Could you provide us an 
update on the recommendations, either here or for the record, 
and your role in this process?
    Admiral McCollum. Thank you, Chairman, for that question, 
and I will be happy to provide the details in a written 
response.
    But I can tell you that of those 117 recommendations, north 
of 90 of them have been implemented----
    Senator Shelby. Good.
    Admiral McCollum [continuing]. And on their way, and as 
they are focused on training in a culture of excellence and 
building a foundation for generating the controls and 
mechanisms in the surface warfare enterprise, the teams that 
have been stood up and focused on a steady drum beat are 
delivering the output on plan. And we are going to continue to 
be very focused until all recommendations are delivered.
    Senator Shelby. That is a big part of readiness, is it not?
    Admiral McCollum. Yes, sir. It is very key to readiness. 
And it is personal readiness, it is equipment readiness, it is 
warfighting readiness, and it all comes together, role clarity 
and the training that goes with it.

                      REACHING END STRENGTH GOALS

    Senator Shelby. General Scobee, I understand that you are 
focusing on improving personnel programs and reaching Air Force 
end strength goals. Could you tell us about how this budget 
request supports your plan to achieve these goals that have 
been outlined, including converting 1,200 Air Force Reserve 
technicians to active guard reserve positions, and why is that 
important?
    General Scobee. Mr. Chairman, all the changes that we are 
making in our personnel systems are to get after our readiness, 
but it is through the personnel readiness piece. And that 
starts with making sure that we meet our end strength. So all 
the programs and all the programs that you have seen in our 
budget that is what I am trying to get after.
    There are three things that I am driving towards. One is 
our medical readiness piece of it and ensuring that we have 
that. With the appropriations we received last year, we had a 
3,000-member backlog in our medical readiness. It is zero today 
because of the on-time appropriations that we received, and we 
were able to focus some money into our medical readiness.
    Additionally, our programs, some of our antiquated systems, 
we are updating those in order to keep that friction of our 
members being able to serve as a minimum, and that includes 
their pay and benefits. So if we can solve those problems, that 
retention rate will come up.
    Additionally, my Air Reserve technician status has been 
difficult for us to fill for a myriad of reasons, but the AGR 
(Active Guard Reserve) pay status that Congress has asked us to 
put into the Air Force Reserve Command, we have been able to do 
that. So by putting the active guard and reserve personnel 
positions into our force, it enables me to give people the pay 
status that best suits the needs of their families, and it also 
will help me with our readiness.
    So those are all the programs that we are changing right 
now in order to work on the personnel piece of our readiness in 
the Air Force Reserve Command.
    Senator Shelby. Senator Durbin.

                            SOUTHWEST BORDER

    Senator Durbin. Thanks, Mr. Chairman. I want to follow up 
on one of your questions.
    General Lengyel, as I understood your answer to the 
Chairman, you anticipate a shortfall of $190 million that the 
guard will need to pay for the President's decision to deploy 
the State National Guards to the border; is that correct?
    General Lengyel. Senator, that is correct. If we do not 
reprogram funds back into our training accounts, we will have 
to make modifications within our current appropriation that 
will either reduce our training opportunities or do things like 
cancel drill weekends to find the money.

                               READINESS

    Senator Durbin. General, have not you come before this 
committee repeatedly and told us that you need readiness more 
than anything else?
    General Lengyel. Well, readiness is our primary goal in 
accordance with the number one priority of the National Defense 
Strategy.
    Senator Durbin. So would you like to explain to me how 
canceling drill weekends enhances the readiness of the National 
Guard?
    General Lengyel. Senator, so the National Guard is part of 
a mission on the southwest border. We have routinely deployed 
and do missions assigned to us that have impacts on our 
readiness.
    At the end of the day, we are going to accomplish the 
mission that was given to the National Guard, which is to 
assist the Department of Homeland Security and secure the 
border.
    Senator Durbin. I am not questioning your dedication or 
following the orders of the President. I am just trying to work 
out the equation here.
    General Lengyel. Sure.
    Senator Durbin. When you answer his call and it costs $247 
million and you have $190 million shortfall and the 
Appropriations Committee asked you a very direct question, how 
are you going to pay for it? What you have suggested is the 
cancelation of drill weekends at $100 million a weekend, and I 
am asking you if readiness is the goal, is the cancellation of 
those weekends consistent with the goal of readiness?
    General Lengyel. Canceling drill weekends will impact 
readiness, and I would tell you that what our hope is is that 
the Department finds funds available inside the Department that 
are reallocatable to that so we do not have to do that.
    Senator Durbin. How much money is asked for in the 
President's budget for next year when it comes to this mission 
on the southern border?
    General Lengyel. So right now there is no additional money 
requested.
    Senator Durbin. So we are going to play this out again next 
year. We will find out exactly when the President decides to 
declare the next invasion, send down good men and women who 
leave their jobs and their families to supplement what the 
border agents are doing, create a whole in the budget that the 
President is not even preparing for or not even anticipating, 
and run the risk that will cancel drill weekends across the 
board for our guard and compromise their readiness. Is this any 
way to run a national defense?
    General Lengyel. Well, Senator, I would say that currently 
this mission is assigned to us through the end of this fiscal 
year, and so if there is a further assignment beyond the end of 
this year and into next year, we will have to make 
accommodations to find the----
    Senator Durbin. General, I know you will do your duty.
    General Lengyel. Yes, sir.
    Senator Durbin. And I obviously am questioning some 
decisionmaking at a higher level.

                              RECRUITMENT

    Let me ask you why the National Guard and the Army Reserve 
had such difficulty in recruiting.
    General Lengyel. So, sir, I think the entire Army last year 
had trouble finding recruits. I mean, the reasons why could 
be--you know, I think it is the economy has been very good. It 
is a very competitive environment.
    Senator Durbin. The economy is also very good for 
prospective marines, sailors, and airmen.
    General Lengyel. It is.
    Senator Durbin. And they met the recruiting goals.
    General Lengyel. Well, as a component, we have to recruit 
big numbers of folks into our force. Every year the Army 
National Guard has to recruit about 50,000 people into our 
force to maintain our numbers, and the Army was growing a 
little bit. So, as the Army was growing the active component, 
sometimes it becomes a competition amongst all of the 
components to find the relatively small number that fit the 
requirements to be part of our force.
    General Luckey. So, Senator, not to interrupt, but since 
the question is directed to the Army Reserve, as the leader of 
the Army Reserve, let me respond directly to your question to 
the Chief of the Guard Bureau.
    So, first of all, candidly, recruiting has not been a 
significant issue for us. I would acknowledge before this 
committee, as I think I have acknowledge to you before, the 
Army Reserve is not where its current authorization is from an 
end strength perspective. So I acknowledge implicitly that we 
have had some problems from a strength perspective, but I would 
not concede that fundamentally we have a challenge with 
recruiting.
    In fact, this last month is an example. The Army Reserve 
exceeded its current sort of trend for the year by exceeding 
our recruiting goals for over 700 new enlistees into the Army 
Reserve.
    I would also tell you that from an attrition perspective, 
attrition or losing soldiers out of the Army Reserve is the 
lowest it has been in 18 years.
    Fundamentally, I would attribute the challenge that I have 
not so much to achieving end strengths. We are, as I said now, 
actually increasing our end strength and have consistently now 
for some period of time.
    The truth of the matter is--and I take some responsibility 
for this, Senator. In a vigorous push for readiness over the 
last couple years, fundamentally directed by me to try to make 
sure we reduce the non-deployable soldiers in the Army Reserve 
and readiness force for major contingency operations in any 
number of potential theaters in a full domain of operational 
challenges, I have in fact insisted on additional readiness in 
terms of medical readiness, deployability, and all other 
aspects of warfighting skills.
    I would acknowledge that there has been some attrition in 
some soldiers who, frankly, probably had not been as challenged 
as they have in the last couple years to remain in this force.

                              RECRUITMENT

    Senator Durbin. General Luckey, the numbers speak for 
themselves, and I am just asking why the Army Reserve and Army 
National Guard have run into difficulties which the other 
branches have not run into.
    General Lengyel. And, Senator, I will continue my question 
to you based on the Army National Guard. Part of it has been a 
reduction in our full-time recruiters in order to recruit the 
force.
    Last year we were authorized an additional 440 recruiters, 
which will mitigate this year's shortfall. We will make our end 
strength this year. We believe that is probably not enough. We 
need to continue to add additional full-time support to help us 
recruit the force and sustain the force to the levels we need 
and to maintain its readiness.
    Senator Durbin. Perhaps some of the reprogramming for the 
southern border can go for recruiters. That might be an 
interesting investment as well.
    I asked in a general way to prepare each one of you for 
this question, and I only have a few seconds left. So I am 
going to pick on the Navy, the Navy Reserve. What has happened 
in the last year that you found most challenging or disruptive 
in terms of what you had planned for the budget for the Navy 
Reserve?
    Admiral McCollum. Senator Durbin, thanks for the question.
    Well, first of all, let me thank the committee for giving 
us a budget on time, and that provided predictability. A 
reservist is at their best when they had that predictability 
with family, with their employer, and their military 
requirements. Anything that competes with that then worries us.
    Quite frankly, the demand that is generated for the shift 
of the focus on the National Defense Strategy, CNO has directed 
me to create a more lethal reserve, to move reserve billets to 
warfighting and the move from less administrative and more 
warfighting, and as we shift to a maritime focus, support of 
great power competition, that movement and how we do it the 
right way has got my attention and takes most of my time as I 
think about it, sir.
    Senator Durbin. Thank you.
    Let me say about appropriations bills on time. Fortunately, 
we are all in the loving arms of our chairman here who has done 
such a magnificent job this fiscal year. We are confident he is 
going to do it again next year against all odds. He brings such 
skill to this task, and well just stand here and just honor him 
today.
    Senator Shelby. Thank you, Senator Durbin. I hope your 
statement becomes true. Thank you.
    [Laughter.]
    Senator Shelby. Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman, and know that I 
echo the support and the encouragement for timely budgets. I 
know how critical it is certainly for the Department of 
Defense. Thank you all for your leadership in all ways.

                               INNOVATION

    I wanted to ask very quickly about the Innovative Readiness 
Training Program. We have seen just really extraordinary 
benefits from this program. Both Army, Marine Corps have been 
involved in specific projects up in my State that have gone a 
long way. The IRT funding is from a line in the defense-wide 
civil military appropriations and in part through, I believe, 
your training budgets.
    So for current fiscal year, we increased funding for that 
defense line by $10 million. The administration budget 
eliminates that adjustment. I am going to seek to restore that, 
but the question that I would have for you all is whether your 
services would benefit from an increase of greater than the $10 
million in the defense-wide line and perhaps if there should be 
other areas that we should look to enhance these opportunities.
    So I guess the question to you all is whether or not, in 
your judgment, there are enough good training opportunities out 
there to support more substantial increases in this IRT 
program.
    General Lengyel. Senator Murkowski, I would like to take a 
shot at that. Anytime we can leverage a readiness training with 
finding incidental benefits or benefits to our States, our 
communities, our services, anything, is a good thing.
    I would like to take an opportunity for the record to go 
specifically get you the numbers from at least what the 
National Guard's contribution to that is, but our ability to do 
real-world training on real-world scenarios, real-world events, 
I think is--as some of my colleagues have talked about, the 
ability here to manage the time required by our soldiers and 
our airmen, sailors, and marines as we do things. If we can get 
training doing real-world duties for our States, for our 
communities, for our services in innovative readiness training, 
it is something that we should maximize to the degree that we 
can.
    Thank you.
    Senator Murkowski. But I appreciate that and would 
encourage you to look specifically at that. Again, we have seen 
great benefit in very remote islanded communities, whether it 
is Old Harbor on Kodiak, down in Metlakatla in Southeast, up in 
Newtok, as that village is being threatened by coastal erosion 
and needs relocation.
    So the benefit out there that we have seen has been truly 
extraordinary, and everything that we hear is that it is 
fabulous training for you all, so if I can ask you to look 
specifically to that.

                              ASSOCIATIONS

    Let me ask you another question, General Lengyel, and I 
would be remiss if I did not put on the table again the 
interest of the 168th Air Refueling Wing. They want to enter 
into an association with the active components to address the 
refueling assets there in the North Pacific. We have been 
talking about it for a couple years now.
    Do you think that we can reasonably expect a resolution to 
this in the near future? We have got the F-35s coming, 
beginning next year, and then also on the issue of assets is 
the combat rescue helicopters. We are very, very proud of the 
extraordinary work that the National Guard search and rescue 
does there in the State, but the assets, the iron that is up 
there is very heavily utilized and needs replacement.
    So do we need to be moving more aggressively here to bring 
the new combat rescue helicopters online? So twofold for you.
    General Lengyel. So for the two questions, with respect to 
the association, I have seen personally the benefits of 
associations and the benefits that gives in terms of 
productivity to the warfighter by blending together the systems 
of the reserve components and the active component.
    And I think that Alaska, the Air Mobility Command, the 
United States Air Force, would need to look at this and make 
sure that we can do it, and if the manpower is available and 
the funding is available to put into--there are various 
different flavors of associations, as you know, to find 
manpower to put there against the association. With the 
increase in aircraft and F-35s and things that are going 
through Alaska, I think that is a good thing, and we need to 
stay on it and make that happen.
    Senator Murkowski. Well, I appreciate you staying on it. 
Thank you.
    General Lengyel. Yes, ma'am. And with respect to the combat 
rescue helicopter, it is a unique environment, lots of rescues 
all the time----
    Senator Murkowski. All the time.
    General Lengyel [continuing]. Going on with the increased 
training opportunities and activities that happen in Alaska all 
the time as well. Those combat rescue helicopters not only 
deploy routinely around the world in support of combatant 
commanders, but they get a lot of business right there in 
Alaska.
    It is an old platform. The Air Force is in the process of 
recapitalizing that platform, and I know that General Scobee 
and the Air Force are going to do that as quick as they can, 
and the Alaska National Guard and the rescue helicopters need 
to be part of it.

                      ARCTIC ENVIRONMENT TRAINING

    Senator Murkowski. Well, we are going to keep pushing on 
that one as well.
    Let me ask, then, because you have mentioned several times 
the value of the training up north. The National Defense 
Strategy and its projection of future of great power 
competition has the active component once again looking to the 
possibility that American forces are going to be needed to be 
fighting in cold weather in conditions that are climate of the 
Arctic. Well, we have got the training grounds, certainly.
    The National Guard Bureau has stood up its Arctic Interest 
Council to begin to prepare for this challenge. We really thank 
you for your leadership with that.
    But I do not know that I have ever had the opportunity to 
raise this with the other reserve commanders. So I would ask 
you what you all are doing now in terms of doctrine, training, 
equipment and anything else that you might deem relevant to 
prepare for training opportunities, to train your units in an 
Arctic environment if called upon, and if so, what do we need 
to do from a resourcing perspective?
    One of the things that we are pushing is some basic things, 
like making sure that we have got outer wear that is sufficient 
to protect from the cold, but can you very quickly just speak 
to this----
    General Luckey. So, Senator, if I may. As the leader of 
America's Army Reserve, as I said, some 200,000 soldiers, we 
are actually very acutely aware of the conditions in which we 
might have to operate, and I acknowledge your question.
    I will tell you we have made significant investment, both 
in terms of equipping--at least some portion of this force is 
necessary to operate in those environments in terms of 
literally the clothing you are speaking of and equipment that 
will operate in that environment.
    And at the risk of expanding the conversation a little bit, 
I will tell you that in addition to acknowledging that we have 
Army Reserve soldiers in Alaska that are obviously trained and 
are very proficient to operate in that environment, we also are 
very proud of--the Army Reserve is very proud of the training 
platform it has at Fort McCoy, Wisconsin, which is also another 
cold weather training environment, not necessarily quite what 
you would get in northern Alaska, but----
    Senator Murkowski. I think it is going to be colder in 
Wisconsin than it is in Alaska right now.
    General Luckey. But I think Senator Baldwin would agree 
that it can get cold in Wisconsin.
    We actually take that very seriously and are increasing our 
proficiency to operate in that environment.
    Senator Murkowski. Good. I appreciate that.
    Others want to tell me what they are doing?
    General James. Senator, thanks for the question from the 
Marine Corps side. Our commandant has been talking about going 
north here for a couple years, and so we----
    Senator Murkowski. We welcome those conversations, you 
know. We are looking at ADAC with great interest.
    General James. Yes, ma'am.
    Senior leadership, we have sent some senior leaders up to 
take a look.
    I had the opportunity to go up to Alaska the last three 
summers with Old Harbor IRT in progress, and I see a lot of 
benefits going up there.
    From the Marine Forces Reserve side, I have directed an 
exercise up into Canada this year, tried to get it over into 
Alaska, but just the tyranny of distance was too much for our 
first one. So we will continue to develop that.
    It is mostly aviation-based this year, but we are going to 
go into the ground side and the battalions, their off years 
from our integrated training exercises out in the desert.
    So it is a challenge, though, for the sheer numbers during 
the wintertime, the cold season, if you will, just because we 
have so many students. So, obviously, our high-demand season is 
the summer, but it is something we can do at a smaller level to 
get our marines cold and get them used to it.
    Senator Murkowski. Thank you.
    Admiral McCollum. Senator, on the Navy side, we recently 
undertook an exercise with the Harry S. Truman Strike Group and 
did an exercise in the high north with our allies and partners 
in the late fall timeframe, and in many cases, we relearned a 
lot of lessons of the past. It had been many, many years since 
we had operated up there in cold weather.
    So not only the things, how we equip our sailors with 
working in cold weather, but things that happen when ice 
occurs, how do you break the ice and many things. So we have a 
pretty exhaustive amount of lessons learned from that endeavor 
with that entire strike group, and the Navy is looking at that 
to prepare to be very versatile and capable in cold weather 
domains.
    Senator Shelby. I would appreciate that. Thank you.
    General Lengyel. Senator, if I could just add one thing. 
You mentioned the Guard. I would just say that given the 
increased activity in the Arctic, as you know, the National 
Guard, not just in Alaska, but all of the States on the Arctic 
Interest Council are preparing for inevitable activity up 
there--search and rescue activity, disaster response activity 
when humans need to be up there.
    And not only that, but as part of the National Defense 
Strategy, working with allies and partners in the Arctic 
together, we do a lot of that through Alaska and a lot of that 
through the National Guard Interest Council. So we think it is 
a very important future mission area for the National Guard to 
be part of.
    Senator Murkowski. Greatly, greatly appreciate it.
    Thank you all.
    Thank you, Mr. Chairman.
    Senator Shelby. Senator Tester.
    Senator Tester. Thank you, Mr. Chairman.
    I want to echo the comments of our Ranking Member of this 
Committee and your leadership skills.
    I want to thank you all for being here. I appreciate it 
very, very much, and I appreciate the people that you represent 
in our military.
    I have been a longtime proponent of upgrading the C-130H's, 
and so, General Lengyel, this is directed at you.
    You know, I get it. I run a farm. It is easier. It is 
cheaper to repair than to buy new, but you give up some things 
when you are working with an airframe that was originally built 
in 1956, the same year I was born, and I am about wore out. So 
I guess they probably wore out too.
    But the point is that things have changed a lot, and now we 
have got these 130J's out there, which I can only imagine if it 
has changed like it has in my tractors--and I would bet it has 
changed a lot more than that--I would be hard pressed to put my 
dad, who is long passed, on the tractor that we run today and 
have him run it.

                             C-130 TRAINING

    So the question is on a 130-H--and they are in active 
military and they are flying the C-130J's, which is the newer 
airframe, and they go to a guard unit that has 130H's, is their 
retraining necessary for that?
    General Lengyel. To change from the C-130H to the C-130J, 
there is----
    Senator Tester. Or vice versa.
    General Lengyel. Or vice versa, yes. Yes, sir, there are 
some differences in training that the aircrew would have to do 
and maintainers as well.
    Senator Tester. Not to get back to the point that Senator 
Durbin made, but that could have an impact on your recruitment 
too and keeping folks in the active military in the Guard, 
which is an incredible asset, right?
    General Lengyel. Absolutely, sir. Without a doubt.
    Senator Tester. Then I also know that getting parts for the 
older equipment is kind of hard to get, and so we had a bunch 
of H's that were grounded because of a prop issue, and 
unfortunately, some people got killed that pointed out the prop 
issue, which is very unfortunate, tragedy. Were there any 130-
J's that were grounded because of the prop issue?
    General Lengyel. No, sir. I think your point about the C-
130H models being older and more expensive and more difficult 
to maintain and staying operational is spot on.
    Senator Tester. And you are a little different because when 
you have a mission to do and you go to fire up the old plane 
and the generator does not work or the starter does not work, 
you cannot go down the road 75 miles and get a part. My guess 
is it probably takes a while to get those parts. They would 
probably have to be made, right?
    General Lengyel. In some cases, yes, sir. In some cases, 
the older equipment is harder to find parts for, for sure.

                         C-130 RECAPITALIZATION

    Senator Tester. So does this budget take a significant step 
forward in replacing those H's?
    General Lengyel. Sir, this particular budget does not, not 
in terms of replacing them.
    There is some money in the budget that will do Avionics 
Modernization Program II, which will actually keep the 
airplanes more modern and more flyable, but things that the C-
130 needs--you mentioned one of them that they were grounded 
for propeller issues--there are programs that can fix the 
engines, that can change the propeller systems, that can make 
the airplane modernization go further, and there is no money in 
this budget to do that.
    Senator Tester. Yes. You know better than I. You are still 
flying an airplane that potentially could be 62 years old.
    General Lengyel. Yes, sir. No doubt about it.
    Senator Tester. Okay. I just think as we move forward 
here--and we have to prioritize what we are doing, and I know 
you prioritize what you are doing. All of you do. I think this 
is a pretty high-priority item. I mean really.
    General Lengyel. Senator, it is, and I would mention over 
the last 3 years, we have had the good fortunate to have some 
16 new C-130J models added to the National Guard. Those will be 
stationed here at some point in the future, but----
    Senator Tester. Can we get about eight of those in Great 
Falls, Montana?
    General Lengyel. There is a basing process that will 
determine where they ultimately go.
    Senator Tester. Okay.
    General Lengyel. But the Air Force, in my view, we need to 
continue to upgrade some of them, while seriously considering a 
modernization program, a recapitalization program that 
seriously considers continuing the extension of new J models.
    Senator Tester. I appreciate that, and I think that--and I 
think it is all about budgets and priorities, and it is about 
actually getting to a situation where we are actually meeting 
the needs of this Country from a security standpoint and you 
being able to do your job. And I just think that a lot of these 
planes should be in museums, quite frankly, and we are still 
trying to keep them up in the air.

                         MENTAL HEALTH SERVICES

    I want to talk about mental health because I know it is an 
issue that you all are concerned about, and I think we have got 
some good programs out there. I think the Air Force Yellow 
Ribbon Program has been a good program. I think the Navy 
Reserve Psychological Health Outreach Program has been a good 
program.
    I guess the question I have is when it comes to mental 
health services--and be as brief as you can--do we have 
adequate access to mental health services for our guards and 
reservists?
    General Lengyel. Well, sir, from the National Guard 
perspective, we certainly could use more. There are access 
programs. There are some, but some of our guardsman do not 
qualify for all of them.
    Senator Tester. But they are a bit deficient right now as 
far as access to mental health folks, especially in rural 
areas.
    General Lengyel. Yes, sir. No, in rural areas, clearly 
there are places where we do not have it.
    Senator Tester. Okay. Anybody else want to respond to that?
    General Luckey. Senator, I would concur. I think it would 
be inappropriate for me to tell you it is common across the 
board----
    Senator Tester. Right.
    General Luckey [continuing]. Because you all know some of 
it depends on where our soldiers are.
    Senator Tester. Yes. That is right now. Yes. Okay.
    General James. Senator, from the Marine Corps Reserve, we 
have about 60 counselors out there, mostly full time, some part 
time. They are contracted out.
    I do not have the details or their work flow, but we could 
always say we could use more with our dispersal of all of our 
marine reserves.
    Senator Tester. Okay. Let us talk about the programs that 
appear to be working and doing things that I think cover the 
gaps that are out there for our fighting men and women.
    Do you guys share? I mean, you are kind of siloed, but you 
probably should not be and particularly mental health 
standpoint, but are you able to share successes to be able to 
utilize best practices between the different branches?
    Admiral.
    Admiral McCollum. Senator, thank you.
    It is a very important topic for the Navy Reserve as we 
manage this in the aegis.
    First of all, for redeploying sailors who have gone on 
deployment, we offer both services and a program, Returning 
Warrior, part of the Yellow Ribbon program, and then over time, 
with--you mentioned PHOP (Psychological Health Outreach 
Program). It has been very effective for us, and what we have 
learned, that the opportunities to engage and communicate is 
where we get the best value out of this.
    Now, as we track metrics and whether it is in the suicidal 
ideation, where we have seen an uptrend, we actually do not 
view that necessarily as negative, because they are willing to 
talk about it, because we track that when they are willing to 
talk about their issue. Whereas, perhaps before, without a PHOP 
counselor, et cetera, maybe they would not have talked about it 
and have held that thought internally.
    Senator Tester. Spot on. But are you able to share what 
works, and is it transferrable to the other components of the 
military?
    Admiral McCollum. We know it works through testimonies.
    Senator Tester. And are you able to share it?
    Admiral McCollum. With the individuals and without 
individual names, we can share.
    Senator Tester. How about between the branches of the 
military? Can you share?
    Admiral McCollum. We should be able to share our best 
practices, of course.
    Senator Tester. And do you?
    General Luckey. I would say unqualifiedly yes.
    Senator Tester. Okay, good. This is a problem that I know 
is on your guys' radar screen, every one of your radar screens, 
and the more people we can get at the table, I think the better 
off we are.
    If one of the branches has got something that works, 
hopefully you guys make a real solid effort to say, ``Hey, 
guys, this is working for me. You might want to give it a 
shot.''
    General Luckey. So, Senator, I will just assure you I pay 
very close attention to what all of my compatriots are doing 
and making sure we are using best practices everywhere we can 
to get after this challenge.
    Senator Tester. Thank you.
    Thank you, Mr. Chairman.
    Senator Shelby. Senator Blunt.
    Senator Blunt. Thank you, Chairman.

                                 C-130

    General Lengyel, let us talk about C-130s just a little bit 
more, totally parochial, as all those discussions usually are. 
This is Rosecrans.
    Before I would ask my question, let me say that actually on 
this topic generally, on the airlift training, and the weapons 
training, that used to be much more year to year and much less 
specific in funding than it is now. I think both the Air Force 
and the Guard have really worked hard with the Committee to try 
to get that to where it is more understood.
    At the 139th at Rosecrans, they do training in both of 
those areas, for people from sometimes up to 20 countries in a 
year that we are friends with to train on airlift and weapons. 
We lost an aircraft last year, I think on the topic of just 
being sure that our equipment is everything it ought to be. 
Obviously that and readiness are appropriate.
    I think you knew I was going to ask this. When do you think 
we will see a return of that eighth aircraft to that training 
base?
    General Lengyel. Sir, I think over the Air Force, every C-
130 unit lost a funded primary aircraft. That is how the Air 
Force spread its financial reduction around, and the Air Force 
is going to relook at that towards the end of the FY DP (Future 
Years Defense Program), and I will give you a question for the 
record. I will come back to you and make sure that I know when 
that is going to be ready.
    Senator Blunt. All right. I will let you follow up with the 
Air Force on that with me, and I will expect that for the 
record.

                             CYBERSECURITY

    On a question I would like all of you to think about and 
respond, if you have a response, obviously in the cyberspace--I 
am also on the intel committee--the cyber warrior space, the 
cyberspace, a real challenge for us--I have always thought 
there was a unique opportunity for the guard and the reserve to 
have that cyber warrior who is out there every day in another 
capacity seeing what is happening, and I just wonder what kind 
of programs, General Luckey, starting with you, that you are 
looking at and if we are able to take advantage of that 
capacity of someone who is in a different situation most of the 
time who actually because of that is probably better prepared 
for the daily challenges of cyber than others might be.
    General Luckey. So, Senator, first of all, thank you for 
the question. I would acknowledge and agree with your implicit 
assumption, which you stated at the end.
    In many cases, we had a lot of soldiers, sailors, airmen, 
and marines out there working in the private sector developing 
and sustaining incredible skills, and we want to obviously 
bring them into a retain--in the U.S. military.
    As for the Army Reserve, as I said in my opening statement, 
Senator, about 2 years ago, we re-tasked a two-star command 
down in Houston, Texas, the 75th Training Command to be the 
75th Innovation Command, and it is now in the posture to both 
operationalize some of the challenges you are talking about 
and, candidly, take it beyond cyber to artificial intelligence, 
to take it to quantum computing and other places, I call it 
``digital key terrain,'' as I said in my opening statement. We 
can go out there and essentially move structure to capture that 
talent and retain it for America and for the U.S. Army.
    So I will tell you we are very aggressively pursuing that 
strategy. It is already paying dividends, and we are in direct 
support of Army Futures Command which, as you know, is located 
in Austin. So we will continue to press this. This is a journey 
of discovery, but I totally agree with your implicit assumption 
on this. And we will continue the operation.
    Senator Blunt. I just think this scenario where people who 
are not in the full-time service bring a different set of facts 
and understandings to their effort to be a cyber warrior.
    General Scobee.
    General Scobee. Senator Blunt, you are exactly correct.
    I will put a fine point on this. I will tell you what we 
have really seen in the Air Force Reserve Command. This year we 
stood up our first cyber wing. It is in San Antonio, and what 
we see there is recruiting and retention is very high in that 
wing because what we give our airmen the ability to do is our 
part-time airmen that work in this industry across America, 
they will fly out and work the cyber mission that is there in 
San Antonio.
    We actually have them spread all over the country, too, in 
squadrons, and they are directly responsible and move into 
active component organizations as well. So there are these 
components that we have working hand in hand with the active 
duty and the reserve command, and they work very well.
    What we are able to do is we gain significant talent from 
industry where they have great expertise, all the tech industry 
that you can imagine, and then we bring that to bear.
    One of the things that is very interesting is the things 
that you can do in the military are much different than they 
are than you might be able to do in civil society. So it is 
interesting to them, which really helps with our retention, as 
you know from your other committees you sit on.
    Thank you.
    General Lengyel. Yes, sir. We have 59 cyber units in the 
Army and Air National Guard. We have three Cyber Protection 
Teams that are mobilized today. For all the reasons my 
colleagues mentioned about location of commercial and the nexus 
between the civil sector and the military sector, the ability 
to train a cyber warrior and then retain him as a potential 
warfighter is something that the reserve component does 
extremely well.
    We have started a unique program this year called Cyber 
Mission Assurance Teams. It is a program that looks 
specifically inside States, Federal facilities, and makes sure 
that those facilities that are tied to utilities and sectors 
that are not necessarily military in nature, that we can assure 
that power and support goes to the Federal installations, and 
we are continuing that.
    Senator Blunt. General James and then Admiral.
    General James. Senator, spot on with the question. So we 
are taking advantage of the civilian skill sets we have out 
there. We do have talent within the Marine Forces Reserve.
    Our largest IMA is in the Marine Corps currently at Marine 
Forces Cyber. We are currently standing up two defensive cyber 
companies, one on the East Coast and one on the West Coast, 
realigning structure. No additional structures have been thrown 
to this yet.
    Senator Blunt. Thank you.
    Admiral McCollum. Senator, equally said, specialty codes is 
how we identify sailors in their skill said, and a cyber 
specialty code is identified as critical. When it is critical, 
it allows us to pull levers, which maybe restrict us otherwise. 
So things like recruiting quotas, we can go beyond those quotas 
if we see a skill set.
    Training recruiters what to look for, joining partnerships 
which we have done with academic institution and industry, 
where those skill sets for cyber have evolved faster than the 
Navy's capacity to train to in some instances. In that regard, 
the ability to bring in, give constructed service credit for a 
validated industry skill that we can bring in sometimes and 
lateral into the Navy, so we are laser-focused on this.
    Senator Blunt. Excellent. Thank you all.
    Thank you, Chairman.
    Senator Shelby. Senator Baldwin.
    Senator Baldwin, Thank you, Mr. Chairman, and thank you to 
all of our witnesses for being here today and your service.
    General Luckey and General Lengyel, you have done a great 
job of improving the operational capacity of the total Army. 
However, as you know, insufficient funding can widen capability 
gaps and will harm the Reserve's ability to support the Joint 
Force.

                         TACTICAL WHEEL VEHICLE

    So I have observed that consecutive budget requests have 
failed to keep pace with the Tactical Wheeled Vehicle 
modernization requirements. In fact, in the fiscal year 2020 
request, there is no funding for recapped Heavy Tactical 
Wheeled Vehicles for the reserves, and the request zeroes out 
funding for HEMTT RECAP beyond fiscal year 2020.
    The Army budget basically eliminated all funding for 
mediums and heavies for the guards and reserves, despite those 
known requirements.
    Consequently, the reserves increasingly relies on National 
Guard and Reserve equipment appropriation, which has been 
helpful, but as a planning tool is unpredictable as it falls 
outside of the normal appropriations, and it limits the ability 
to forecast.
    Further, the Army's funding strategy fails to support the 
minimum sustaining rates--and you know that is something I talk 
about a lot--for a very fragile supply base that supports Heavy 
RECAP industrial base that is across the Midwest.
    Finally, I am not suggesting that we modernize mediums and 
heavies, rather than improving the Bradley fighting vehicle. 
However, I suggest that we learn from the past and keep in mind 
that countless support and sustainment soldiers have traveled 
down those same dangerous roads in Iraq and Afghanistan, 
oftentimes in HEMTTs and FMTVs, and they will continue to do so 
in future conflicts.
    So my question for you, General Luckey and General Lengyel, 
is, Do you agree that Tactical Wheeled Vehicles such as the 
HEMTT and FMTV provide a critical capability that ensures the 
Army Reserve components can execute their required missions of 
homeland defense, domestic emergency responses, and providing 
military support to civil authorities?
    General Lengyel. Senator, I do. I think that from the Guard 
perspective, I support the Army's modernization programs. We 
need to be part of it as the reserve component, the National 
Guard. We need to modernize in concert with the Army as they 
replace their tactical vehicles across the spectrum of tactical 
vehicles.
    I think that we do have a unique eye on the homeland 
requirements to make sure that our vehicles will be able to 
sync up and do things here in the homeland, as you mentioned, 
but we need to be embedded with the active component--whatever 
we have in the Army National Guard needs to be deployable, 
sustainable, and interoperable with what they have in the Army. 
And so that is where we come down on that.
    Senator Baldwin. Thank you.
    General Luckey. Senator, if I may. As I have said before, 
my view of this is--and I would echo what General Lengyel just 
said to the extent that I am very much focused on making sure 
those formations that go out early on or affects construct, 
which I know you are more than familiar with, have the same 
mobility, the same lethality, the survivability, and the netted 
mission command architecture to operate completely in an 
inoperable fashion with every other formation on the 
battlefield. There is both--it is just absolutely the right 
thing to do. It also gives you the capabilities you need in 
combat to operate without having somebody too slow or unable to 
keep up or keep pace or survive across the total force.
    I would also tell you, as you well know--and I acknowledge 
your point about NGREA, and I appreciate the support that this 
committee along with the House has given us to have some 
flexibility in this regard. But, as I think you know, I am 
committed to making sure that the Army Reserve continues to 
lead this conversation as far as modernizing key aspects of our 
force.
    As you know, we have made an early investment with NGREA 
dollars into a small but very important capability in the JLTV 
program, which as you know we are bringing together right now 
at Fort McCoy, Wisconsin, to make sure that we are preparing 
ourselves for the future, training ourselves for the future, 
and learning how to essentially ingest these new technologies 
and capabilities as quickly as possible to reserve component of 
the United States Army.
    Senator Baldwin. Thank you.
    And then, General Lengyel, as we have discussed--and I know 
you are very aware of--I am extremely proud of the men and 
women at the 115th Fighter Wing located at Truax Air National 
Guard Base in Madison, Wisconsin.
    In 2017, the 115th was selected to perform the F-35A 
mission, and our community stands ready to support that 
mission. However, it is my understanding that there have been 
some delays in the process, which include the Air Force's 
environmental review process and public hearings.
    So I just would appreciate it if you could give me a status 
update as well as any potential impacts of these delays on the 
plan beddown schedule for Ops 5 and 6.
    General Lengyel. Senator, I will commit to do that.
    I am not aware of any meaningful delays in the program. I 
believe everything is on track that everything is funded, but I 
will double check that and deliver you my assessment.
    Senator Baldwin. Okay. Thank you very much.
    Senator Shelby. Thank you.
    Senator Hoeven.
    Senator Hoeven. Thank you, Mr. Chairman.
    Thanks to all of you for your service and for your 
leadership. It is greatly appreciated.
    General Lengyel, the Guard is not able to use the full 
tuition benefit along with the GI Bill for their education as 
the active-duty forces are, and so that is something that I 
think we need to address.
    Senator Boozman, who is also a member of this committee, 
and myself have now put in a bill to do that, but essentially 
it would provide that any member of the Guard for their 
education could use both GI Bill and the full tuition benefit. 
Would you please give me your thoughts on whether you support 
that?
    General Lengyel. Senator, I fully support many of our Guard 
members joining the reserve components to get the education 
benefits that come with it, and a more educated force is a more 
valued, ready force of the United States Army and United States 
Air Force. I fully support both Federal assistance and GI Bill 
assistance.
    Senator Hoeven. And, in fact, that can be an important 
component for recruitment and retention.
    General Lengyel. Absolutely, no doubt about it.
    Senator Hoeven. Right.
    And I would note for the record that the Department of 
Defense also supports the legislation, so we appreciate it.
    Along that same line, the Army Guard offers a tuition 
benefit. Air Guard does not. So where are you in terms of 
getting that?
    General Lengyel. Sir, the Air National Guard is putting 
together a process right now, and I believe it is their intent 
to implement a situation similar to the Army National Guard so 
that you could do both.
    Senator Hoeven. Good. We need to have both in place-
    General Lengyel. Yes, sir.
    Senator Hoeven [continuing]. For our fantastic guardsmen.
    You and I have talked about it, but the 119th, the Happy 
Hooligans in Fargo, North Dakota, operate the MQ-9. As a matter 
of fact, I think they were first or one of the first guard 
units to get, at that time, the Predator Mission, now the 
Reaper Mission. Based on their missions, which they perform 
very well and they very much want to keep because they are very 
important missions, they do need a new building. But if the new 
building is not brought online in time with the upgrades that 
they need to operate the MQ-9, it would force them to stand 
down for a period of time, which you could say, well, maybe it 
is not a big deal, except they do have clients they are serving 
that they very much want to keep. And those clients want to 
keep them because of the incredible service.
    So that building construction really needs to be in fiscal 
year 2021. It is under design now. Your thoughts on getting 
that done so we do not have a disruption in service?
    General Lengyel. So, yes, sir. My thoughts is that I 
believe that the current facility can sustain operations in 
this mission set until the new building is up and running. It 
is our desire and our plan to make sure that it is a seamless 
transition and that the building does not have to stand down 
mission while a move into a new facility takes place.
    Senator Hoeven. Good.
    General Lengyel. But I will follow up and report back to 
you again.
    Senator Hoeven. Yes. Very important. And if it is not on 
schedule--well, either way, if you could just keep me apprised 
of that schedule of that very important unit.
    General Lengyel. Senator, I will.
    Senator Hoeven. One of the other things that I want to ask 
you about is when you look at our Guard--and I was governor for 
10 years out there. You rely on the Guard for so much. I mean, 
it is not only the incredible service throughout the war on 
terror, which has just been unbelievable, four and five 
deployments in some cases, reserve as well, but every time 
there is a flood, like we are having up there now, or fires or 
tornadoes or just anything you can think of, the first group 
you call is the National Guard. Every time. It is amazing.

                           FULL-TIME SUPPORT

    But just based on both my service as governor and my 
service here, what I see is a shortage of full-time positions. 
When I look at the size of our Guard and what their mission 
staffing is supposed to be, there may be 70 percent at most of 
their full-time relative to what they really need based on 
their mission requirement, maybe 70 percent, maybe less, okay? 
Is that typical throughout the Guard, and do not we need to be 
looking at more full-time positions in the Guard?
    And we can have the Reserve members respond afterwards, but 
based on my experience as governor, I really see it in the 
Guard, and I see it as a pressing need. What are your thoughts 
on that?
    General Lengyel. Yes, sir. My thoughts are that the 
Adjutant General has told me that their number one concern with 
respect to maintaining the readiness of the force is the number 
of full-time support that they have inside the Army National 
Guard.
    We are currently manned at 64 percent of the requirement, 
so not even 70 percent.
    Senator Hoeven. Right.
    General Lengyel. Whatever the Army says we need, we are 
funded at 64 percent of what that requirement is.
    There is no other readiness program inside the National 
Guard funded and inside the Army National Guard funded at that 
level, so there certainly is risk.
    I mean, I have been sitting up here saying how operational 
we are and how deployable we are and we are the best National 
Guard, and all those things are true. But there certainly is 
risk, both in the maintaining of readiness for our Federal 
mission, which is the primary thing we do, and then to be ready 
to be mobilized by the governors to have the full-time force 
there that sustains our operations, our facilities, our 
equipment, so that it is ready to work. It is a significant 
risk that I have conveyed to the Army.
    Senator Hoeven. Well, and as we look at bang for the buck 
and you look at the rate of deployment throughout the war on 
terror and everything else and then you add in all of the 
natural disaster stuff, everything from putting you at the 
border to anything you can think of, it just seems to me like 
this is a huge priority when we look at manpower funding for 
the overall DOD (Department of Defense).
    General Lengyel. Senator, what I have recommended is that 
we move towards a funding level of not 64 percent, but 80 
percent of the requirement. And that is roughly an increase 
across the country of about 10,000 more full-time positions, 
convert part-time billets. I am not saying grow the whole 
Guard. I am just saying convert part-time billets to full-time 
billets and allow us to increase the percentage of full-time 
force there. That is about 1,000 a year. We can show you the 
readiness that will generate to everything we have discussed 
across the board today from recruiting the force to retaining 
the force, to make sure that everything works so that the M-day 
soldier can come to work and train and be ready to deploy when 
the country needs it to.
    Senator Hoeven. Well, if I could get more information on 
that from you, I would be willing to talk to our absolutely 
outstanding Chairman and Ranking Member and others about it.
    General Lengyel. Yes, sir. I will pass it to you. Thank 
you.
    Senator Hoeven. Thank you.
    Senator Shelby. Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.

                       ENVIRONMENTAL RESTORATION

    General, my understanding is that current DOD policy 
restricts the use of defense environmental restoration funding 
for the cleanup of PFAS, a chemical that has been found to have 
contaminated certain National Guard State facilities. As a 
result, many installations or units may be forced to use 
operations and maintenance funds to conduct those cleanups.
    In Maine, our governor has set up a task force charged with 
reviewing the prevalence of PFAS in our State. This is an issue 
that the TAG in Maine has mentioned to me as well.
    Should the Guard, in your judgment, have full access to the 
defense environmental restoration funding in order to remediate 
these sites that are contaminated by PFAS?
    General Lengyel. Senator Collins, I fully believe that we 
should. Two years ago, up until 2 years ago, we did have access 
to this account.
    I think they should treat our installations like they treat 
every installation. We used those products because they were 
mandated by the Federal Government to use it in, of course, our 
Army and Air National Guard facilities, and I believe that they 
should treat us just like every Federal installation and let us 
have access to their account.
    Senator Collins. It does seem very odd that you do not 
already have access, so I appreciate you getting that on the 
record.
    Later this month--and I hope to be there at the sendoff--
the Maine Army National Guard's 286th Combat Sustainment 
Support Battalion in Bangor will be deploying to Europe in 
support of Operation Atlantic Resolve. Since Russia's invasion 
of Ukraine in 2014, U.S. forces have been rotating, as you are 
well aware, through Europe for this vital mission to deter 
further Russian aggression and conduct multinational training 
with our NATO (North Atlantic Treaty Organisation) allies and 
other European partners.
    Could you describe the importance of the role that the 
National Guard plays in supporting the Atlantic Resolve?
    General Lengyel. Senator, thank you for that question.
    We play a role, first and foremost, as part of the United 
States Army. We deploy into Europe and into NATO. They look 
across--our potential adversaries, the Russians, look across, 
and they see a United States flag, and they see the United 
States Army. And we see a well-trained, well-equipped ready 
force that can deter potential aggressive activity.
    What the National Guard also brings is our unique 
relationships in the State Partnership Program, the 
relationships we have with 22 nations across all of Europe. 
They know us. They trust us. They train with us. They deploy 
with us. It is a unique security cooperation tool that only 
enhances our ability to assure our partners and allies and make 
a ready force.
    So keeping us ready makes us a part of that force, making 
sure that we assure our allies and partners that we are there 
when they need us is part of the National Defense Strategy.
    And we have 2,000 people over there right now deployed as 
part of Operation Atlantic Resolve.
    Senator Collins. Well, soon you will have 70 very capable 
Mainers joining them.
    General Lengyel. Absolutely. Thank you for that.

                       STATE PARTNERSHIP PROGRAM

    Senator Collins. I am glad that you mentioned the Guard 
State Partnership Program. I view this as a high-leverage, low-
cost program that benefits the United States beyond just 
military cooperation, and I am very proud of the role that the 
Maine National Guard has played in preparing Montenegro for a 
session into NATO. And I know the partnership has also 
benefited the Maine Guard as well.
    I visited Montenegro, and I cannot tell you how grateful 
they were to the United States and to the Maine National Guard 
specifically for helping them get ready for NATO membership, 
and they just went on and on about how valuable the training 
and assistance had been. And that has strengthened those 
countries, which were once in the orbit of the Soviet Union, 
and also, if we can get stronger partners in NATO, that 
benefits all of us.
    So, given the growing importance of the State Partnership 
Program, what would be the impact if funding is inconsistent or 
not sustained as far as your ability to plan and execute those 
State Partnership engagements?
    General Lengyel. Secretary--or excuse me. Senator Collins--
--
    Senator Collins. I like that. That ``Secretary'' is okay.
    [Laughter.]
    General Lengyel. I think that the impact of not having the 
funding would be very harmful to the program.
    One thing that I want to say about this year's funding is 
we got it on the 1st of October. We got all of our funding so 
we can execute throughout the year, and this year, we will be 
able to execute all of the funding that we get for the State 
Partnership Program, which is about $29 million. Thank you for 
the budget on time and the funding on time and a full year to 
use it.
    This year in the President's budget, the funded level, as 
requested, is at about $16 million. We need another $14 million 
to bring us up to the current level of funding that we have.
    This program now has 83 partners. Last year, we were in New 
York Harbor, and we added Brazil to the Partnership Program. We 
have Sri Lanka and Nepal standing by to be assigned states now 
to partner with them, and this program is still growing at a 
rate of two to three partnerships per year. And it is doing 
amazing security cooperation work that is directly tied to the 
National Defense Strategy under the command and control and 
auspices of the combatant commander, and it is a hugely 
important program.
    Every time we add two to three partners, we need to add 
about a million dollars a year to sustain that program, and 
over time, I think this is going to be a legacy of the National 
Guard. It is our relationships with these friends, as you saw 
Secretary General Stoltenberg talk about last week when he was 
addressing Congress and said, ``It is good to have friends.'' 
We build friends in this partnership and combat capability.
    We have deployed to the combat zone more than 80 times with 
our partners and our host nations. That is a good thing for the 
United States.
    Senator Collins. It is a great partnership program, and I 
hope we can fully fund it.
    Mr. Chairman, I want to echo my thanks for your leadership 
in getting the Department funded on time. That has made such a 
difference. Thank you very much.
    Senator Shelby. We hope to do it again.
    Senator Collins. We are going to do it again.
    Senator Shelby. Thank you, Senator.
    Senator Collins. Thank you.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Shelby. This will conclude our hearing. We 
appreciate all of you appearing before the committee today. 
There were other Senators at other committee meetings, and they 
would probably want to submit additional questions, and perhaps 
I even have a couple of questions. And I would hope if they are 
submitted, you would answer them in a reasonable time.
    General Lengyel. Yes, Chairman.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
             Questions Submitted by Senator Mitch McConnell
    Question. C-130J Recapitalization for the Air National Guard: In 
recent years, Congress has appropriated a total of 16 C-130Js to the 
Air National Guard (two in the fiscal year 2017 defense appropriations 
law, six in the fiscal year 2018 omnibus appropriations law, and eight 
in the fiscal year 2019 defense appropriations law). Will you please 
provide an update on the basing plans for these aircraft?
    Answer. The Air Force Strategic Basing Process is being used to 
achieve Secretary of the Air Force (SecAF) approval for the basing 
location for the 16 C-130Js appropriated for the Air National Guard in 
fiscal year 2017-2019. The basing process is currently in the early 
stages of the process where it first seeks SecAF approval of the 
``Enterprise Definition'' and ``Scoring Criteria.'' SecAF's approval of 
the ``Enterprise Definition'' and ``Scoring Criteria'' is expected this 
summer.
    Question. How many Air National Guard C-130H units are expected to 
be recapitalized with these new aircraft?
    Answer. The intent is to recapitalize two existing units with the 
new aircraft.
    Question. When are these aircraft scheduled to deliver, and is the 
basing process on track to align with the expected delivery schedule 
for these aircraft?
    Answer. Currently, the 16 C-130Js are scheduled to be delivered 
between the first quarter of fiscal year 2021 and the fourth quarter of 
fiscal year 202. The basing process is on track to ensure delivery 
during that period.
                                 ______
                                 
             Questions Submitted by Senator Lisa Murkowski
    Question. What do you need to be doing now in terms of doctrine, 
training, equipment and anything else you might deem relevant to 
prepare your units to operate in the Arctic if called upon?
    Answer. The National Guard recognizes the emerging strategic 
importance of the Arctic region given the geographic, geo-political, 
and threat environment. However, without validated requirements it is 
difficult for the Guard to unilaterally address doctrine, resources and 
training necessary to operate in the Arctic. Nevertheless, the National 
Guard has taken a proactive approach to overcome these challenges 
within its statutory confines.
    DOCTRINE: Today we lack the ability to effectively navigate, 
communicate and sustain operations within the Arctic. In order to 
develop doctrine to better operate in Arctic conditions, the National 
Guard participates in the Arctic Capabilities Advocacy Working Group 
(ACAWG), which seeks to bring together Arctic stakeholders across the 
defense enterprise. Further in 2018, the National Guard Arctic Interest 
Council (AIC) was established to address doctrine development and 
identify key initiatives and possible solutions to known capability 
gaps. The National Guard will use these vehicles to explore, support, 
and develop Artic doctrine.
    TRAINING: It is imperative that the National Guard exercise in 
Arctic conditions to identify potential shortfalls in Arctic response 
doctrine, training, and equipment. Exercises such as ARCTIC EAGLE are 
critical to the National Guard. Additional exercises and training 
opportunities will build off of this framework to ensure a prepared 
force.
    EQUIPMENT: The National Guard requires additional research and 
training opportunities to properly understand the scope and scale of 
the difference between their expected performance and their likely 
actual performance in extreme cold environments. (Additional details in 
follow on answer)
    Question. What suggestions do you have to this subcommittee for 
resourcing to be effective in that mission, should you be called upon?
    Answer. The National Guard is postured to respond to current 
requirements in the Arctic but there are areas of risk that can be 
mitigated. In keeping with recommendations outlined in the 2016 Report 
to Congress on Resourcing the Arctic Strategy, funding and resourcing 
should be made available for additional research for Arctic response, 
military infrastructure, and capabilities. Other areas of focus should 
include increased exercises, Artic communications, Chemical, 
biological, radiological and nuclear (CBRN) equipment, skiway 
construction, extreme cold weather tents, heaters and clothing. The LC-
130s are also owned by two different organizations--the United States 
Air Force and the National Science Foundation. Split ownership causes 
conflicting aircraft configuration, competing priorities, and 
competition for resource, which has increased cost-sharing for 
moderation. These issues are problematic to the National Guard's 
warfighters.
                                 ______
                                 
               Questions Submitted by Senator Jerry Moran
    Question. What does the National Guard Bureau need in order to 
continue supporting the mission of the Kansas National Guard Advanced 
Turbine Engine Army Maintenance (ATEAM)? Contracting personnel? What 
resources were required to establish the MOA with Army Material Command 
in support of the current contractual obligations of the ATEAM?
    Answer. Resources for the ATEAM should rely on foreign military 
sales demand to support its infrastructure. The current MOA is between 
The Deputy Assistant Secretary of the Army for Defense Exports and 
Cooperation, the Program Executive Office Ground Combat Systems, the 
National Guard Bureau, and the Kansas National Guard. The National 
Guard Bureau currently provides contracting support and fiscal 
oversight of funds transferred to the Kansas National Guard.
    Question. The Kansas Intelligence Fusion Cell (KIFC) is a State-
level intelligence entity that partners with the Department of Homeland 
Security, the Department of Defense, the Intelligence Community and 
Public-Private Sector Critical Infrastructure and Key Resources (CIKR) 
operators to fulfill a mission focused on intelligence analysis on 
counterterrorism, cybersecurity, and weapons of mass destruction. I 
understand that based on the success of the KIFC, the National Guard is 
proposing to expand this capability to multiple other States, a concept 
known as the Joint Force Headquarters Analysis Cells (JAC). As you look 
to expand and create this structure, will you continue to maintain the 
decentralized approach at the State-level that has served as the 
cornerstone of the KIFC and enabled their success with CIKR partners? 
Will you rely on and consult with the Kansas National Guard to develop 
the JAC model and leverage the successes of this entity in order to 
develop your proposal and plan to expand?
    Answer. The National Guard would consult with the Kansas National 
Guard to develop the Joint Analysis Cells model with the goal of 
maintaining a decentralized approach. However, the National Guard 
currently lacks the authority and funding to stand up and operate Joint 
Analysis Cells. The non-Federalized National Guard is prohibited from 
engaging in Federal intelligence activities (foreign intelligence and 
counterintelligence), like Joint Analysis Cells. There are additional 
statutory issues related to the potential execution of foreign 
intelligence activity defined in the Joint Analysis Cells Concept of 
Operations under the command and control of the Governor and with 
mission control and oversight of the Chief of the National Guard 
Bureau.
                                 ______
                                 
              Questions Submitted by Senator John Boozman
    Question. I am a cosponsor of a bill led by my good friend Senator 
Daines that would allow dual-status technicians to use Tricare Reserve 
Select, even though they are eligible for the Federal Employees Health 
Benefits program (FEHB). I am interested in your thoughts on how 
important that is to you as Chief--giving service members the option 
for TRS eligibility.
    Answer. The National Guard would like to thank you and Senator 
Daines for your efforts on this front. The legislative proposal would 
provide better options for full time Forces especially dual status 
technicians, and create a retention incentive for the full time force.
    Current law excludes our dual status service members from coverage 
under TRICARE Reserve Select (TRS) when they are eligible for health 
insurance under the Federal Employee Health Benefits (FEHB) program. In 
a cost comparison, Guard Member TRS premiums are significantly lower 
than FEHB. On average, TRS coverage costs less than half of what FEHB 
costs an individual and depending on the specific FEHB plan could save 
our dual status Guard Members thousands of dollars annually. 
Additionally, Guard Members encounter a cumbersome administrative 
process when transferring on and off of active duty orders that can 
affect the timely health coverage of the Guard Member.
    Question. I have been interested in Duty Status Reform as a means 
to provide flexibility for service members to serve in the capacity 
that best fits their lifestyles. More generally, I am interested in 
providing maximum flexibility for members to move quickly between 
Active and Reserve Components. What input has the Guard provided to DoD 
in its preparation of the report that the Department owes to Congress 
by April 30 on reforms?
    Answer. This legislative proposal is the result of a 3-year-long 
comprehensive review by a Duty Status Reform working group with 
participation from members of all seven Reserve Component Services, as 
well as staff from the office of the Assistant Secretary of Defense for 
Manpower and Reserve Affairs. The National Guard has been involved with 
OSD and the working group for over 2 years. The National Guard has also 
hosted visits, calls, and briefings to leadership, coordinated with 
various in-house subject matter experts, and had members from the 
Assistant Secretary of Defense for Manpower and Reserve Affairs team 
brief State Adjutants Generals in November 2018. Additionally, the 
National Guard formed an internal working group, with State 
representatives, was formed in March 2019 to specifically review 
concerns raised by States with the draft legislation.
    Question. In your statement you highlighted the strengths of our 
State Partnership Program. Can you comment on the light attack aircraft 
program and how beneficial this specific platform can be in building 
partnership capacity?
    Answer. The Light Attack Aircraft program has the potential to 
increase coalition lethality through improved capabilities, capacity, 
and interoperability. The potential air platform will improve partners' 
ability to employ airpower alone or within a coalition in a permissive 
environment, such as combatting violent extremism. Leveraging this 
platform with State Partnership Program relationships can enable access 
to critical regions and encourage greater defense cooperation in order 
to build partnership capacity.
    Question. I believe the Guard requires modern weapons systems and 
air platforms that are proportional to their active components to 
ensure interoperability of the military as a whole. As this relates to 
the Air Force's C-130 fleet, what do you believe the ANG requires to 
recapitalize and modernize its current inventory?
    Answer. In order to continue to meet current airlift capability 
requirements, the Air Force will need to balance modernizing existing 
C-130H aircraft while recapitalizing aging platforms with newer C-130J 
aircraft. Propulsion and avionics modernization efforts are necessary 
to extend the lifespan of newer H model aircraft so recapitalization 
can focus on replacing older aircraft characterized by diminished 
maintenance capability rates and increased sustainment costs. The Guard 
should be modernized and recapitalized concurrently and proportionally 
to the Active Components.
    Question. The Administration has determined that the creation of a 
Space Force is necessary to continue to transition space from a benign 
environment to a warfighting domain. What role do you see the National 
Guard playing if Congress decides to create the new branch, and how 
would this affect the current National Guard space mission?
    Answer. Since 1995, the National Guard space forces have been 
integral to operational space missions such as strategic missile 
warning, expeditionary space electronic warfare, satellite 
communications, Joint Forces space support, and space intelligence. If 
Congress establishes a U.S. Space Force and associated Space National 
Guard, the Space National Guard should continue in its unit-equipped, 
surge-to-war reserve component role as they currently do for the Army 
and Air Force. The concurrent establishment and transfer of existing 
Active, Guard and Reserve space forces to the U.S. Space Force are 
intended to ensure no degradation in the mission and associated 
responsibilities. Any delay in transfer, or any effort to create unique 
organizational constructs instead of concurrent transfer, will create a 
Service/National Guard misalignment that is inherently counter to the 
current mission.
    Question. At the onset of the war on terror, the National Guard 
shifted from a strategic reserve into an operational force, with a much 
higher Ops Tempo, and a vastly shorter mobilization period. Since the 
National Guard is expected to be ready to deploy with a shorter 
mobilization period than in the past, does the Army National Guard have 
the proper percentage of full-time support to meet today's readiness 
posture?
    Answer. No, the Army National Guard's full time support is 
currently authorized and funded at 64 percent of its validated manpower 
requirements, which represents a challenge to support operational 
demands. Any full time support authorization below 80 percent creates 
an unacceptable level of risk for providing ready units to Combatant 
Commanders. Currently, there is a 10,000 full time support shortage 
within the Army National Guard. The Army depends on higher levels of 
readiness in select Army Guard units to meet Combatant Commander 
requirements. Emerging operational demands are driving increased 
workloads primarily in unit level support and maintenance.
    Question. And, as a follow-up, how does full-time support effect 
the National Guard's ability to recruit and retain soldiers?
    Answer. The decrease in full time support has had a negative impact 
on recruitment and retention of soldiers. This is evident over the past 
5 years, where the number of full time billets decreased, causing the 
enlisted accessions to fall by 23 percent, which resulted in the Army 
National Guard missing its end strength goals in fiscal year 2018 for 
the first time in over two decades.
    The fiscal year 2019 NDAA took steps to correct this shortfall by 
increasing the Army National Guard's full time support authorization 
for recruiters by 440 positions. Since adding the 440 Active Guard 
recruiters, the ARNG has seen an increase of 3,271 new accessions 
compared to the previous 12 months and can see consistent signs of 
increased accession momentum. Further, increased full time support 
directly translates to increased retention rates of traditional Guard 
Members because these members can focus on their primary mission and 
training requirements, rather than focus on increased administrative 
burdens and paperwork. Increased full time support has created an 
environment for to a more prepared, better equipped force that is able 
to conduct the mission they signed up to perform.
                                 ______
                                 
            Questions Submitted by Senator Patrick J. Leahy
    Question. Americans rely on the National Guard for response in 
times of disaster, first under the command of their governors, then 
under State-to-State agreements, and finally as part of a coordinated 
response with support from Federal authorities. Please describe the 
Bureau's role in supporting States' planning and response.
    Answer. The 54 States, Territories, and the District of Columbia 
are the most capable and best postured military entity to support 
domestic operations in the United States. Further, he National Guard 
supports States' planning and response by coordinating with State and 
Federal entities to integrate and synchronize Homeland Defense, 
Homeland Security, and Civil Support. On a national level, the National 
Guard Bureau assigns a planner for each Federal Emergency Management 
Administration region to support the 54 States, Territories, and the 
District of Columbia's planning efforts. This includes annual exercises 
to test plans and the real-world response to natural events. On a State 
level, the National Guard Bureau coordinates annually with each State 
to identify required response capability and capacity, and then assists 
with mitigating shortfalls.
    Question. As an official charged with ensuring the Guard is 
prepared for its Federal mission, please describe how disaster response 
is relevant training.
    Answer. Response to natural disasters affords the National Guard 
realistic training opportunities. The complexity, chaos, and pressure 
inherent in large disasters provides opportunities to train across a 
variety of National Guard capabilities and units. For example, 
following Hurricane Irma and Maria in 2017, the 182nd Airlift Wing from 
Peoria Illinois flew 153 personnel to support immediate response 
efforts for Puerto Rico and the Virgin Islands. The 182nd used training 
funds to pay for this mission acquiring real-world training experience 
for Guard Members to assist during these most challenging 
circumstances. These flights were not only instrumental in the 
immediate recovery efforts of the region, but were primarily authorized 
to ensure Guard Members are able to train in an environment that they 
will likely never see outside of combat.
    Question. What changes to policy or legislation would improve your 
ability to support governors' ability to utilize the National Guard for 
disaster response in their own States or as part of a multi-State 
coordinated effort?
    Answer. The Department of Defense should continue to follow their 
long standing policy that delegates U.S.C. 32 Section 502(f) 
authorities to the Service Secretaries. This will increase flexibility 
and greater National Guard participation as a larger part of the 
Department's federally- resourced domestic response. Further, both the 
Department of Defense's and FEMA's current policies and processes 
strongly favor cost as a source selection criteria over efficacy. This 
strict focus on cost, without a more balanced consideration for 
efficacy, discourages a federally- resourced (Title 32) National Guard 
response and pushes active component military forces or Federal 
Emergency Management Administration contract options.
    Question. As discussed during the hearing, the National Guard faces 
a shortfall of funding in fiscal year 2019 for its required training 
due to deployments to the Southwest border, and the President has 
proposed no funding for those deployments in fiscal year 2020, should 
they be extended. If no reprogramming is made available, what training 
will you cut, and how will you come to that determination?
    Answer. Without reprogramming, the National Guard will experience 
shortfalls in personnel and operation and maintenance funding for the 
duration of fiscal year 2019.
    Potential impacts of no reprogramming to cover this requirement are 
that the National Guard would curtail September drill periods, and 
possibly August drill periods. Alternatively, if the National Guard 
conducted all statutory programs in fiscal year 2019, including August 
and September drills, the Guard would not be able to make the required 
fiscal year 2019 contribution to the Military Retirement Trust Fund.
    Question. If you are ordered to find funding to reprogram within 
the Bureau's budget, how will you make the determination about which 
funded priorities to terminate?
    Answer. With only two appropriations to draw from the National 
Guard is limited in its mechanisms to curtail expenditures. Drill 
periods and curtailing certain contracts are the primary measures.
    Question. I am pleased to hear that you are evaluating new 
structures for addressing mental resiliency, mental health and suicide. 
As we have discussed, moving to a model of preventative mental health 
that recognizes its inherent linkages to everyday fitness helps remove 
stigma for seeking help and get ahead of trauma so our women and men 
will be more prepared. I understand you have asked for a proposal 
related to establishing a Warrior Resiliency and Fitness program or 
office that could coordinate activities across the force. How soon 
could such an office begin to provide preventative mental health 
recommendations, support, and assistance to National Guard units across 
the country?
    Answer. The National Guard has analyzed the necessary requirements 
to staff a Warrior Resilience and Fitness Program Office and developed 
what we believe to be an appropriate staffing model. The National Guard 
has begun to hire personnel to support daily functions. The projected 
date to formally establish this office is June 30, 2019. Once the 
office is established, it will help develop and resource programs to 
enhance the quality of services available to our members, expand access 
to care, and improve the culture around help-seeking behavior.
    Question. It is my understanding that the fiscal year 2020 budget 
does not have any funding specifically budgeted for these efforts. When 
will Congress receive a budget request to support these efforts?
    Answer. As the office matures and permanent staffing requirements 
are determined, we will validate the manpower requirements and request 
additional full time support in future budget requests.
    Question. How could such an office leverage the lessons learned and 
successes of other components and branches of the Armed Services to 
provide preventative mental health recommendations, support, and 
assistance to National Guard units more effectively than the service-
specific process today?
    Answer. The Warrior Resilience and Fitness Program Office will be 
organized and structured to appropriately interface with internal and 
external partners (to include the other military components) in order 
to specifically leverage best practices and innovative strategies to 
improve the National Guard's overall prevention and resilience efforts. 
The Warrior Resilience and Fitness Program Office staffing will include 
Liaison Officers whose primary responsibility will be to support the 
integration of a holistic approach to wellness and fitness across the 
National Guard. Liaison Officers will regularly participate in meetings 
with outside agencies, DoD, and non-government organizations to support 
the implementation of Warrior Resiliency and Fitness initiatives within 
the National Guard under the Total Force Fitness framework.

                          SUBCOMMITTEE RECESS

    Senator Shelby. The Defense Subcommittee will reconvene in 
open session on Wednesday, May the 1st, at 10:00 a.m. to 
receive testimony from the Department of the Navy.
    The subcommittee stands in recess. Thank you.
    [Whereupon, at 11:27 a.m., Wednesday, April 10, the 
subcommittee was recessed, to reconvene at 10:00 a.m., 
Wednesday, May 1.]
</pre></body></html>
